<html>
<title> - EXAMINING ALLEGATIONS OF CORRUPTION AT THE EXPORT-IMPORT BANK</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






     EXAMINING ALLEGATIONS OF CORRUPTION AT THE EXPORT-IMPORT BANK

=======================================================================



                                HEARING

                               before the

                    SUBCOMMITTEE ON ECONOMIC GROWTH,
                  JOB CREATION AND REGULATORY AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 29, 2014

                               __________

                           Serial No. 113-144

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      


                                     ______

                         U.S. GOVERNMENT PRINTING OFFICE 

90-965 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                  


                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

  Subcommittee on Economic Growth, Job Creation and Regulatory Affairs

                       JIM JORDAN, Ohio, Chairman
JOHN J. DUNCAN Jr., Tennessee        MATTHEW A. CARTWRIGHT, 
PATRICK T. McHENRY, North Carolina       Pennsylvania, Ranking Minority 
PAUL GOSAR, Arizona                      Member
PATRICK MEEHAN, Pennsylvania         TAMMY DUCKWORTH, Illinois
SCOTT DesJARLAIS, Tennessee          GERALD E. CONNOLLY, Virginia
DOC HASTINGS, Washington             MARK POCAN, Wisconsin
CYNTHIA LUMMIS, Wyoming              DANNY K. DAVIS, Illinois
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina
KERRY BENTIVOLIO, Michigan
RON DeSANTIS Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 29, 2014....................................     1

                               WITNESSES

Mr. Johnny Gutierrez, Former Employee, Short Term Trade Finance 
  Division, Export-Import Bank
    Oral Statement...............................................     6
The Hon. Fred P. Hochberg, Chairman and President, Export-Import 
  Bank of the United States
    Oral Statement...............................................     7
    Written Statement............................................     9
Ms. Diane Katz, Research Fellow in Regulatory Policy, The 
  Heritage Foundation
    Oral Statement...............................................    14
    Written Statement............................................    16

                                APPENDIX

July 28, 2014, letter to Rep. Cartwright from the Export-Import 
  Bank, Submitted by Rep. Cartwright.............................    66
July 28, Op-Ed by William Broch, submitted by Rep. Cartwright....    68
May 2014 CBO study, submitted by Rep. Jordan.....................    72
July 25, 2014, Bloomberg article, submitted by Rep. Cummings.....    82
Opening Statement from the Rep. Matt Cartwright..................    85
Federal employee viewpoint survey results........................    87

 
     EXAMINING ALLEGATIONS OF CORRUPTION AT THE EXPORT-IMPORT BANK

                              ----------                              


                         Tuesday, July 29, 2014

                  House of Representatives,
Subcommittee on Economic Growth, Job Creation, and 
                                Regulatory Affairs,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Jim Jordan 
[chairman of the subcommittee] presiding.
    Present: Representatives Jordan, DeSantis, Duncan, Meehan, 
Lummis, Collins, Meadows, Bentivolio, Cartwright, Duckworth, 
and Connolly.
    Also Present: Representatives Issa, Woodall, and Mulvaney.
    Staff Present: Molly Boyl, Deputy General Counsel and 
Parliamentarian; David Brewer, Senior Counsel; Sharon Casey, 
Senior Assistant Clerk; Steve Castor, General Counsel; Brian 
Daner, Counsel; Adam P. Fromm, Director of Member Services and 
Committee Operations; Linda Good, Chief Clerk; Michael R. Kiko, 
Legislative Assistant; Mark D. Marin, Deputy Staff Director of 
Oversight; Ashok M. Pinto, Chief Counsel, Investigations; 
Jessica Seale, Digital Director; Andrew Shult, Deputy Digital 
Director; Jonathan J. Skladany, Deputy General Counsel; Rebecca 
Watkins, Communications Director; Jaron Bourke, Minority 
Director of Administration; Courtney Cochran, Minority Press 
Secretary; Jennifer Hoffman, Minority Communications Director; 
Tim Lynch, Minority Counsel; Brian Quinn, Minority Counsel; and 
Katy Teleky, Minority Staff Assistant.
    Mr. Jordan. The committee will come to order. I want to 
thank our witnesses for being here. We'll get to you in just a 
minute. We're going to start with opening statements, and begin 
by recognizing the chairman of the full committee, the 
gentleman from California, Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman. Thank you for holding 
this very important hearing today. Our witnesses are here 
because it's important the American people understand that with 
a pattern and a history of, and I use the word ``corruption'' 
in parentheses, but inappropriate behavior, questionable loans, 
a number of scandals that have made the American people 
question whether or not the term ``bank'' is appropriate for 
the Export-Import Bank.
    Ex-Im Bank is not just a government program or subsidy. It 
is, in fact, a longstanding entity that is intended to help us 
compete in our exports around the world, it's intended to make 
American products that would not otherwise be produced and 
exported possible, but it is, in fact, a program that comes 
with a cost. Any time the American people have a question about 
whether or not the risk is worth the reward. Mr. Chairman, I'm 
one member who believes that the risk and reward should be 
positive.
    Americans compete around the world with countries who play 
by different rules. There are countries, like China, that will 
simply buy their way into a market. They will bribe individuals 
in government to gain rights and capabilities. Even countries 
as advanced as France are known to fail to meet the anti-
corruption laws that America observes. So for that reason, it's 
important when Airbus has an opportunity to sell to America, 
that Boeing have an opportunity to have an even playing field. 
No company should be forced to move out of the country in order 
to access plans and financing that would be available to them--
would not be available to them if they were within this.
    Having said that, our jurisdiction is not on renewing the 
Ex-Im Bank; our jurisdiction clearly is on waste, fraud and 
abuse and the organization--or organizational strategies 
necessary for the American people to have a feeling of 
confidence in the Export-Import Bank. That does mean that we 
have to look at failures related to corruption and failures 
related to does this entity make loans possible where they 
otherwise wouldn't be possible, or is it often used for very 
high numbers for entities that would, in fact, otherwise still 
have a sale.
    This committee only a few weeks ago looked at an embassy 
program that went awry in Papua New Guinea. We do not blame the 
Ex-Im Bank for the failure of that construction project, but a 
deciding factor in the mid-construction change was, in fact, an 
Ex-Im Bank-sponsored loan program that was going to cause 
natural gas to be liquefied in Papua New Guinea and then sent 
to China.
    I, for one member, have serious questions about whether or 
not a company that is American flagged, but ultimately global, 
can receive income from one country, sell it to another 
country, and then claim that the risk should be on the American 
taxpayers.
    So as we look at both the loan portfolio, the loan 
criteria, and the integrity of the organization, I hope we'll 
do so with a positive attitude that this is a longstanding 
program that has merit, but that, in fact, we have an 
obligation to see lives up to the highest standards, not of a 
bank, not of a government entity, but of a program designed on 
behalf of the American people to promote positive job growth 
here in America through our products being competitive around 
the world.
    And for that reason, Mr. Chairman, you are showing great 
leadership here today in giving the Bank and others an 
opportunity to make their case for how they can do better on 
behalf of the American people, and I thank you for that, and 
yield back the balance of my time.
    Mr. Jordan. I thank the chairman.
    I would now yield to the ranking member of the 
subcommittee, the gentleman from Pennsylvania, Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman. And I welcome our 
witnesses on today's panel. Today's hearing is intended to 
examine recent allegations of corruption at the Export-Import 
Bank, an independent, self-sustaining agency with a history of 
supporting U.S. jobs by financing the export of American goods 
and services. I do look forward to today's testimony on the 
bank's anti-corruption and anti-fraud efforts, the bank's 
process for responding to employee integrity issues, and how it 
does maintain high ethical standards that Congress and the 
American public expect from all government agencies. However, I 
am concerned that this hearing today has been called, in a rush 
to judgment, intended to tarnish the reputation of the Bank and 
its employees in an attempt unduly to influence a vote on the 
bank's reauthorization.
    Four Ex-Im Bank employees are currently under 
investigation. Details of those investigations cannot and 
should not be discussed at this hearing, because congressional 
oversight is not supposed to jeopardize ongoing personnel 
actions or criminal investigations. I hope that the chairman 
will agree to instruct members not to jeopardize 
unintentionally the investigations by pressing for certain 
details of alleged misconduct.
    Nonetheless, both Chairman Jordan and Chairman Issa have 
stated that these incidents, which we have very limited detail 
about, suggest a broader culture of corruption at the Bank, but 
the facts do not support that conclusion. Each of these 
investigations followed a formal referral for investigation 
that originated in the Ex-Im Bank's general counsel's office, 
and to date, every case of alleged fraud that the IG has 
referred for prosecution concerns outside entities which were 
seeking to steal taxpayer funds, not bank employees.
    Now, the fact that outside parties attempted to defraud the 
Bank does not indicate that there is a culture of corruption 
inside the Bank. Calling the Bank corrupt for crimes committed 
against it is what we call blaming the victim.
    Now, let's talk about what this hearing is really about, 
and that is the reauthorization of the Ex-Im Bank. This issue, 
for the first time in modern memory, has become controversial, 
not because of the issue before us today, but because the Tea 
Party faction of the Republican Party is holding this 
reauthorization hostage. This hearing seems to be designed to 
influence this important upcoming vote with propaganda and 
political theater.
    A large group of Democrats as well as sensible moderate 
Republicans, many of whom I am proud to call my friends, 
understand the contribution that the Export-Import Bank makes 
to our communities by providing support for jobs and 
investments in small businesses all across America. It helps 
our domestic manufacturers compete with companies that are 
getting help from their own country's export banks overseas. We 
have to level the playing field for our companies, because 
other countries are putting their thumbs on the scale in favor 
of their own manufacturers. If we don't level the playing field 
for our companies, our companies and our workers face unfair 
disadvantage.
    The Bank supports businesses in every state in the union. 
In my district alone, I'm very happy that the Bank supports 10 
companies and 639 jobs. In fact, in Pennsylvania, the Bank 
supports $5.5 billion in exports. Nationwide, the Bank has 
supported 1.2 million American jobs, generated billions for the 
government, and costs the U.S. taxpayers nothing. In fact, we 
make money on the deals. On average, 87 percent of bank 
transactions benefit small business exporters of U.S.-made 
goods and services. These are deals that could not and would 
not be done by the private sector alone, and are the perfect 
example of the kinds of public-private partnerships we need to 
get our economy going again, get our businesses thriving again 
and get our people back to work.
    And speaking of getting back to work, I would note that 
this is the first hearing on the Economic Growth, Job Creation 
and Regulatory Affairs Subcommittee that has even tangentially 
anything to do with job creation, and therefore, I appreciate--
having--appreciate the chairman having this hearing at all.
    I do hope the chairman will join with me and other 
Republican and Democratic members who are calling for a 
reauthorization of a bank that supports U.S. jobs by financing 
the export of American goods and services. In fact, an op-ed by 
William E. Brock, labor secretary under President Ronald Reagan 
shows how far away from the tenets of President Reagan the 
modern Republican Party has drifted. He said, as a Republican, 
I would prefer that the private sector carry the entire load of 
supporting our international competitiveness, but the world 
market is not a level playing field, and the Bank is absolutely 
vital for companies involved in the global economy. Having 
worked closely with Mr. Reagan on trade issues, I am confident 
that he felt the same.
    And, Mr. Chairman, I ask unanimous consent to enter this 
op-ed by Former Secretary Brock into the record.
    Mr. Jordan. Without objection.
    Mr. Cartwright. Thank you, Mr. Chairman, and I yield back.
    Mr. Jordan. I thank the gentleman for his statement.
    According to a recent report--well, let me do one other 
thing first. I ask unanimous consent that Mr. Mulvaney, the 
gentleman from South Carolina, be allowed to participate in 
today's hearing.
    According to a recent report in The Wall Street Journal, at 
least four bank employees are under investigation for accepting 
bribes and steering Federal contracts to favored companies. In 
fact, fraud within and against the Bank may be far more 
widespread. The acting Inspector General of the Bank has 
informed the committee that there are at least 40, 40 active 
and ongoing investigations of fraud. And I would just as an 
aside highlight, after the ranking member's opening statement, 
that what better time, what better time to discuss real 
concerns at the Export-Import Bank than when we're looking at 
the issue of reauthorization. I think this would be the 
appropriate time to have this kind of hearing and look at these 
very issues.
    In a hearing last month before the Financial Services 
Committee, Mr. Hochberg testified, ``The article that was in 
yesterday's Wall Street Journal, in my opinion, is actually a 
good article, because it says to our staff and to the exporter, 
if you're doing anything funny, any funny business, we are on 
to you.'' But just a few years ago the Export-Import Bank was 
at the center of the most high profile corruption scandal, 
Abscam, when former congressman, William Jefferson, was caught 
with $90,000 in his freezer. As part of that investigation, an 
Ex-Im Bank employee admitted to taking a $100,000 bribe from a 
Nigerian businessman seeking financing from the Bank. 
Apparently, the Bank's employees need regular reminders that 
it's wrong to accept bribes.
    The allegations are appalling, but they are hardly 
shocking. The sole purpose of the Ex-Im Bank is to hand out 
billions of dollars to private companies in the form of direct 
loans, loan guarantees and credit insurance. Given such massive 
government largesse, the Bank is a natural target for fraud and 
its employees are natural targets for bribery and corruption. 
What is shocking is how the Bank has managed that risk.
    One of the witnesses before the committee today is alleged 
to have accepted bribes from a south Florida exporter known as 
Impex Associates. Ex-Im Bank has a long history with Impex 
Associates, approving over 22 deals stretching from 2002 to 
2011. In 2006, a 70-page lawsuit filed in Federal court laid 
out in excruciating detail how Impex Associates was nothing 
more than a massive scheme to defraud the Bank. Even after the 
whole world knew that Impex Associates was bilking the American 
taxpayer, it took the bank's management 3 years, 3 years to 
suspect there was anything wrong and refer the matter to the 
Inspector General. In fact, during those 3 years, the Bank 
approved five more deals with Impex, subjecting taxpayers to up 
to $40 million in liability.
    According to the 2013 Federal Employee Survey, the Bank's 
staff have little faith in its leadership. When asked if, ``my 
organization's leaders maintain high standards of honesty and 
integrity,'' only 42 percent of the employees at the Bank said 
yes; when asked whether they could, ``disclose a suspected 
violation of any law, rule or regulation without fear of 
reprisal,'' only 50 percent of the Bank employees said yes. 
That's the culture that exists at the Bank, that's why it's 
appropriate we have this hearing at a time when we're looking 
at the issue of reauthorization.
    President Obama famously said that when the American people 
lose faith in the ethical standards of government employees, 
all is lost.
    In the private sector, if half of the employees of a 
company lost faith in their leadership, there would be big 
problems with that company. Unfortunately, that is what appears 
to be the case today with the Export-Import Bank. That's why 
we're having this hearing.
    And with that, I would yield back our time and recognize--
is there anyone else on the Democrat side who--is Mr. Cummings? 
Anyone else wish to make an opening statement? Anyone else on 
the Republican side wish to make an opening statement?
    We will now go to our--members have 7 days to submit 
opening statements for the record. We'll now go to our 
witnesses. We have first Mr. Johnny Gutierrez, who's the former 
official in the short-term trade and finance division--trade 
finance division, excuse me, of the Export-Import Bank; we have 
the Honorable Fred Hochberg, who's chairman and president of 
the Export-Import Bank of the United States; and Ms. Diane 
Katz, who is a research fellow in the regulatory policy 
division at the Heritage Foundation.
    I want to thank you all for being here. We know it's not 
always easy to do this, but we appreciate you being here with 
us.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. If you'll please stand and raise your 
right hand. Do you solemnly swear or affirm that the testimony 
you are about to give will be the truth, the whole truth and 
nothing but the truth, so help you God? Let the record show 
that each witness answered in the affirmative.
    You guys know how this works. You're given 5 minutes, more 
or less, right around the 5 minute mark, to make your opening 
statement. I know some of you submitted those already in 
written form. I'd like to thank you all for being here. And we 
will start first with Mr. Gutierrez.

                       WITNESS STATEMENTS

                 STATEMENT OF JOHNNY GUTIERREZ

    Mr. Jordan. Mr. Gutierrez, you have not provided us with 
any written testimony before today's hearing. Do you wish to 
make an opening statement?
    Mr. Gutierrez. Upon advice of counsel, I hereby invoke my 
privilege against self-incrimination under the Fifth Amendment 
to the United States Constitution, which protects the innocent 
as well as the guilty.
    Mr. Jordan. We certainly respect that right you have, Mr. 
Gutierrez, under our wonderful Constitution.
    Mr. Gutierrez, as an official in the Export-Import Bank's 
short-term trade finance division, you are uniquely qualified 
to provide testimony that will help the committee better 
understand allegations of corruption and fraud at the Export-
Import Bank. To that end, I must ask you to consider answering 
the questions, so if you'll just bear with me.
    Mr. Gutierrez, while you were at the Export-Import Bank, 
did you accept any gifts or items of value from either Geraldo 
Diaz or Impex Associates?
    Mr. Gutierrez. Upon advice of counsel, I hereby invoke my 
Fifth Amendment privilege against self-incrimination.
    Mr. Jordan. I just have a couple questions, Mr. Gutierrez, 
and then we'll let you go here.
    Mr. Gutierrez, The Wall Street Journal reported that you 
and three other Export-Import Bank employees accepted gifts and 
kickbacks and improperly awarded contracts to favored 
companies. Are you aware of any other employees at the Export-
Import Bank who accepted gifts or items of value from companies 
or individuals seeking export financing?
    Mr. Gutierrez. Upon advice of counsel, I hereby invoke my 
Fifth Amendment privilege against self-incrimination.
    Mr. Jordan. Just one last question, Mr. Gutierrez. Are you 
prepared to answer any questions here today about anything you 
did while you were at the Export-Import Bank?
    Mr. Gutierrez. Upon advice of counsel, I hereby invoke my 
Fifth Amendment privilege against self-incrimination.
    Mr. Jordan. Does the ranking member have questions for Mr. 
Gutierrez?
    Mr. Cartwright. Not at this time.
    Mr. Jordan. Mr. Gutierrez----
    Mr. Issa. Mr. Chairman? I would ask before you dismiss the 
witness that--instruct counsel to meet with our counsel to see 
whether or not there is or could be a proffer prior to 
dismissal, since Mr. Gutierrez is here pursuant to a subpoena. 
I would rather do that than to try to make contact later.
    Mr. Jordan. We're going to excuse Mr. Gutierrez. If--Mr. 
Gutierrez, if there's a chance you and your counsel could visit 
briefly with our counsel and--after you're dismissed, we would 
appreciate that. So we'll just take a short recess. Mr. 
Gutierrez, you're dismissed.
    A couple, 2-minute break here, and we'll maybe rearrange 
the table a little bit, and then we'll be right back for our 
opening statements from Mr. Hochberg and Ms. Katz.
    Mr. Gutierrez, thank you for being here today. The witness 
is dismissed.
    [recess.]
    Mr. Jordan. Mr. Hochberg, you are recognized for 5 minutes.


               STATEMENT OF HON. FRED P. HOCHBERG

    Mr. Hochberg. Thank you. Chairman Jordan, Ranking Member 
Cartwright and committee members, thank you for inviting me 
here to testify before you today.
    Ex-Im Bank is the official export credit agency of the 
United States. We operate exclusively in cases where the 
private sector is unwilling or unable to provide support, and 
to level the playing field against foreign competition. I am 
proud of our 400-plus employees, too, each and every day. Ex-Im 
Bank has supported 1.2 million private sector jobs in the 
U.S.--U.S. jobs since 2009, including 205,000 in fiscal 2013 
alone. The Bank operates at no cost to taxpayers, and in fiscal 
2013, the Bank generated $1,057,000,000 for U.S. taxpayers 
above and beyond the cost of all operations and loan loss 
reserves. The $1 billion goes towards deficit reduction.
    We report on default rate to Congress every 90 days. As of 
June 30th, Ex-Im's default rate was.194 percent, or in other 
words, less than one-fifth of a percent. The private sector 
average rate, as calculated by the Fed, is currently three to 
four times that amount.
    Today's hearing concerns ethics and how the agency 
addresses this important area of public trust. The Bank is 
fully committed to transparency and expects the highest ethical 
standards from all employees, and I look at this in three 
distinct areas: One, a culture of ethics starts at the top. I 
personally and the management team at the Bank are fully 
committed to running an ethical agency and operating at the 
highest ethical standards in government. Anything less than 
this is unacceptable.
    Second, a committed culture of ethics must also have a 
strong ethical training and compliance program to ensure that 
all employees understand and internalize regulations and 
ethical expectations.
    And third, lastly, because we don't live in a perfect 
world, an effective monitoring enforcement program must also 
exist. We work very closely with the Inspector General to 
monitor and enforce ethical concerns or breaches. One of my 
first orders of business when I joined Ex-Im was to establish a 
regular meeting with the Inspector General. I continue to meet 
with him privately each and every month.
    Before joining Ex-Im, I ran a business, a small business, 
in fact, for 20 years and I know what it means to meet a weekly 
payroll. I also know that the only way for an organization to 
be successful is to operate at a high ethical level and have 
zero tolerance for fraud, waste or abuse.
    Additionally, let me add that the agency's ethics program 
are fully compliant with all laws, regulations and policies 
that govern this aspect of our work. We are committed to 
comprehensive ethics training for all employees--in fact, we 
have a manual right here--and foster an environment where 
employees are encouraged to ask questions and report suspected 
unethical behavior.
    Here are just seven examples of what we're doing: all new 
employees receive the manual ethics training upon arrival; they 
also receive mandatory annual ethics training thereafter; 
three, Ex-Im thoroughly reviews all financial disclosure 
reports, required to be filed by all employees on an annual 
basis; four, we conduct background checks on all of our 
employees and contractors that work at the Bank; five, we also 
periodically conduct background re-investigations on employees 
who have access to sensitive information and those who hold 
high level security clearances; six, we provide advice to 
employees to avoid any potential conflicts of interest; and 
lastly, we work closely with and refer matters, as appropriate, 
to the Inspector General.
    As I mentioned, I meet monthly with the Inspector General 
and we review the status of audits and other ongoing 
investigations and periodic reports to Congress. I am only 
informed of an investigation at the discretion of the Inspector 
General.
    Ex-Im Bank fully respects the authority of Congress to 
provide oversight of the Bank, and we strive to comply with all 
congressional requests to the fullest extent possible without 
compromising ongoing investigations. I know that every member 
of this panel shares my concern about not interfering with an 
ongoing criminal investigation. The last thing I want to do is 
interfere with the ability of law enforcement officials to 
fully and successfully prosecute wrongdoing.
    I know there is intense interest in the allegations 
mentioned in the recent newspaper article. So as not to 
compromise the ongoing criminal investigations, privacy 
interest and due process rights, I can only say the following: 
Three individuals are no longer employed by the Bank and a 
fourth has been placed on administrative leave.
    I want to reiterate, the Bank has zero tolerance for ethics 
violations. And I look forward to answering your questions.
    [Prepared statement of Mr. Hochberg follows:]
    [GRAPHIC] [TIFF OMITTED] T0965.001
    
    [GRAPHIC] [TIFF OMITTED] T0965.002
    
    [GRAPHIC] [TIFF OMITTED] T0965.003
    
    [GRAPHIC] [TIFF OMITTED] T0965.004
    
    [GRAPHIC] [TIFF OMITTED] T0965.005
    
    Mr. Jordan. We now recognize Ms. Katz.


                    STATEMENT OF DIANE KATZ

    Ms. Katz. Chairman Jordan, Ranking Member Cartwright and 
members of the subcommittee, thank you for having me here today 
to testify. My name is Diane Katz and I am a research fellow in 
regulatory policy at The Heritage Foundation. The views 
expressed in this testimony are my own and should not be 
construed as official positions of The Heritage Foundation.
    As you are aware, the charter of the Export-Import Bank 
expires on September 30th. Proponents of reauthorization assert 
that the Bank sustains American jobs, fills gaps in export 
financing, and levels the playing field against subsidies 
provided by foreign governments; however, there is abundant 
evidence to the contrary and the academic literature is 
virtually unanimous in concluding that export subsidies are 
detrimental.
    The Office of Inspector General and the Government 
Accountability Office have repeatedly documented mismanagement 
and dysfunction within Ex-Im, including insufficient policies 
to prevent waste, fraud and abuse. This pattern of carelessness 
with taxpayer dollars is evident in the multitude of criminal 
cases involving the Bank.
    As the chairman noted, employees say that ethical conduct 
is not among Ex-Im's strengths. In a 2013 government survey, 
only 42 percent of bank employees agreed with the statement, my 
organization's leaders maintain high standards of honesty and 
integrity.
    In a 2013 review of direct loans, the Office of Inspector 
General identified the Bank's non-compliance with even the most 
basic Federal procedures, noting ``Bank personnel failed to 
document applicants' eligibility and application requirements 
and disregard mandatory checks on applicants' character and 
financial integrity.''
    Operational deficiencies appear to have worsened as bank 
financing has surged. Ex-Im's portfolio has increased by 94 
percent since 2008. As noted by the Inspector General, this 
rapid growth raises concerns as to Ex-Im's inability to manage 
and monitor its portfolio.
    Failures in management and monitoring are evident in dozens 
of cases of fraud. Based on a review of government data, The 
Heritage Foundation documented 124 investigations initiated 
between October 2007 and March 2014, as well as 792 claims 
involving more than a half billion dollars. There also have 
been 74 administrative actions since April 2009 in which bank 
officials have been forced to halt transactions based upon 
investigative findings.
    A lack of due diligence was explicitly cited in the 
disappearance of $577 million related to the Bank's financing 
of a massive natural gas project in Papua New Guinea. The 
Inspector General noted that Ex-Im did not fully vet the 
relevant persons and entities connected with the project.
    Similar lapses were cited in the Bank's financing of the 
Bolero mine project in Mexico, which defaulted within months of 
receiving a $420 million loan. According to the Inspector 
General, project vulnerabilities ``were not sufficiently 
addressed in Ex-Im Bank's due diligence efforts.''
    In other cases, the Bank has engaged in literally dozens of 
transactions with an individual or a company before discovering 
that taxpayers were being defrauded. For example, from 2008 
through 2010, Jose Quijano acted as an exporter in 96 
fraudulent loan transactions insured by the Ex-Im Bank. Between 
2004 and 2007, Ismael Garcia acted as the purported exporter in 
at least 31 fraudulent transactions involving $23 million in 
loans. From 2004 through 2007, Jose Velasco and others 
submitted false documents for 13 Ex-Im loan guarantees. The 
Bank subsequently paid $18 million in claims on the defaulted 
loans. Between 2004 and 2009, Luis Moy acted as the exporter in 
11 fraudulent Ex-Im Bank insured or guarantied loans totally 
$11.2 million.
    Fraud and corruption are not the only risks to taxpayers 
related to Ex-Im. The Government Accountability Office reported 
that the Bank appears to be relying on inappropriate risk 
modeling that could produce inaccurate estimates of subsidy 
costs and losses.
    Ex-Im officials also are skirting requirements for 
determining the effect of export subsidies on domestic firms. 
Specifically, the Bank omitted relevant data and analysis 
beyond that considered necessary to support staff 
recommendations for financing.
    Despite promises to improve matters over the years, bank 
officials continue to neglect due diligence, misstate losses, 
and exaggerate benefits. These failures are important to 
acknowledge as you consider whether to reauthorize the Bank or 
allow its charter to expire. Thank you.
    Mr. Jordan. Thank you, Ms. Katz.
    [Prepared statement of Ms. Katz follows:]
    [GRAPHIC] [TIFF OMITTED] T0965.006
    
    [GRAPHIC] [TIFF OMITTED] T0965.007
    
    [GRAPHIC] [TIFF OMITTED] T0965.008
    
    [GRAPHIC] [TIFF OMITTED] T0965.009
    
    [GRAPHIC] [TIFF OMITTED] T0965.010
    
    [GRAPHIC] [TIFF OMITTED] T0965.011
    
    [GRAPHIC] [TIFF OMITTED] T0965.012
    
    [GRAPHIC] [TIFF OMITTED] T0965.013
    
    [GRAPHIC] [TIFF OMITTED] T0965.014
    
    Mr. Jordan. We'll now go to questions. The gentleman from 
Florida, Mr. DeSantis, is recognized.
    Mr. DeSantis. Good morning, Chairman Hochberg. When did you 
become aware of Mr. Gutierrez's alleged corruption?
    Mr. Hochberg. There are four employees who are under 
investigation. And on advice of counsel and after talking to 
the Inspector General not to jeopardize their case, I'm really 
not able to talk about a criminal investigation while it's 
going on.
    Mr. DeSantis. So you can't even say when you were apprised 
of it just in terms of how we evaluate your role in running the 
agency, not even getting into the criminal charges?
    Mr. Hochberg. My--the Inspector General's already been 
concerned that too much information has leaked about this. He 
has--he wrote a letter to----
    Mr. DeSantis. Okay. Well, let me--I take your point. Was 
this the first time you've been made aware of possible 
corruption by the Export-Import Bank employees in your tenure?
    Mr. Hochberg. Yes. I've been at the Bank for 5 years. This 
was the first year.
    Mr. DeSantis. So you were not aware of any other instances 
of employee corruption since you've been at the Bank?
    Mr. Hochberg. Well, there are four cases that have been 
raised in the newspaper. I'm familiar with those four.
    Mr. DeSantis. Now, at the June 25th Financial Services 
hearing, Chairman Jordan referenced that you said that 
yesterday's Wall Street Journal article, in my opinion, is 
actually a good article.
    Did the Export-Import Bank need a reminder by The Wall 
Street Journal that it's explicitly illegal to accept bribes?
    Mr. Hochberg. No.
    Mr. DeSantis. And I bring that up, because most American's 
don't know what the Export-Import Bank is, but a lot of 
Americans do remember, and this was--I guess, the misconduct 
would have been before you got there, but it came to a head in 
2009. There was a Member of Congress that the FBI found 
thousands of dollars in his freezer, Congressman Jefferson. 
That was a very high profile scandal.
    And so I guess my question is, you know, why are we here 
again? It's been just 5 years since the Export-Import Bank was 
at the center of one of the biggest corruption scandals in 
Congress certainly in decades, and yet it's back on the front 
page of The Wall Street Journal. So how is that a good thing?
    Mr. Hochberg. What I tried to say, Congressman, is that we 
work closely with the Inspector General. We have set a high 
ethical standard at the Bank. We work closely with all 
employees to provide ethics training. We instituted a multi-day 
course this year that was oversubscribed. Over 50 people have 
taken it so far. We're going to be extending that. We have a 
high ethical standard there. On the other hand, enforce--the 
reason we have to have enforcement is not everybody plays by 
the rules, not everybody follows the rules, and when that does 
happen--and in this case, in the cases we're talking about, 
employees at the Bank referred each and every one of those to 
the general counsel and to the Inspector General----
    Mr. DeSantis. So the source of those--the four instances 
that The Wall Street Journal referenced, the source of that 
were employees referring that, or did those start in the 
context of a fraud investigation?
    Mr. Hochberg. It started with employees saying that 
something doesn't look right in this transaction on this area 
of the Bank.
    Mr. DeSantis. Okay. Because according to your letter to the 
committee, the alleged wrongdoing by Mr. Gutierrez was 
discovered during a fraud investigation. I think that's what 
you're saying. There as a transaction, people say, hey, there 
may be something wrong. So basically the foreign company may be 
committing a fraud or the domestic company against the Ex-Im 
Bank.
    Now, as I understand it, there are at least 40 outstanding 
fraud investigations of bank transactions that are outstanding. 
Is that correct?
    Mr. Hochberg. I don't know about the precise number. I can 
say this, Congressman: We--there only have been four employees. 
There will always be at a bank of our size a number of 
transactions that will be under suspicion or will be 
investigated.
    Mr. DeSantis. No. I understand that. And I agree with that, 
but my point is simply that if we have 40 fraud investigations, 
it seems as if that is kind of the way in which some of the 
employee misconduct can be discovered, and so if there are 
substantial number of outstanding fraud investigations, it 
stands to reason that there very well may be more instances of 
employee misconduct.
    I'm going to ask you this: You noted in your testimony that 
the Ex-Im Bank serves to kind of level the playing field, you 
have all these foreign countries that engage in subsidies for 
their domestic industries. And I guess my question is for you 
is, why are we worried about foreign nations engaging in 
industrial policies? It just seems to me that, I understand why 
that would be politically attractive, but economically it seems 
like it would be counterproductive, because you basically have 
central planners who are allocating capital rather than 
allowing private individuals. And so if China wants to go down 
that road, China may not be experiencing the growth that they 
would have if they were leaving private capital to allocate 
itself based on the private ownership. So how would you respond 
to that?
    Mr. Hochberg. We live in a world right now--and we have to 
partly accept the world we live in. We live in a world where 
there is state-directed capitalism in many, many countries; 
China's one, but it's not the only one.
    We want to make sure that when American companies are 
competing--if they compete against another company, it's one 
thing; if they compete against China, Inc., or Korea, Inc., or 
Russia, Inc., and so forth, sometimes those companies are 
backed by those governments, we want to make sure if, only if 
our financing is needed to level the playing field, that we 
step in. We only step in in those rare occasions where we're 
needed to.
    Mr. DeSantis. My time is expired. I yield back to the 
chairman.
    Mr. Jordan. The gentleman from Pennsylvania, the ranking 
member, Mr. Cartwright, is recognized.
    Mr. Cartwright. Thank you, Mr. Chairman.
    Mr. Hochberg, I thank you again for appearing here today, 
and I just want to run over a few important facts with you. 
First of all, am I correct that the Ex-Im Bank supports 1.2 
million American exporting jobs?
    Mr. Hochberg. Yes, that's correct.
    Mr. Cartwright. Okay. At no cost to the taxpayer?
    Mr. Hochberg. That's correct, no cost to the taxpayer.
    Mr. Cartwright. And this is a function, to address my 
colleague, Mr. DeSantis' concern: How many other countries--
it's something like 40 other countries in the developed world 
that have the equivalent of the American Ex-Im Bank. Isn't that 
true?
    Mr. Hochberg. There are actually 59 other export credit 
agencies around the world.
    Mr. Cartwright. 59 others in the world. And if we didn't 
have ours to help American companies compete, the playing field 
would be much less level than it is today. Am I correct in 
that?
    Mr. Hochberg. That is totally correct.
    Mr. Cartwright. All right. Well, nevertheless, we do have 
this Wall Street Journal article about four cases of 
potentially criminal misconduct, and I want to talk about that. 
With respect to those, I understand that on the advice of the 
Bank's counsel, you're not able to discuss the details of those 
cases. Am I correct in that?
    Mr. Hochberg. That is correct.
    Mr. Cartwright. Now, we asked the acting Inspector General 
whether he would be able to discuss the circumstances of those 
four individuals, and in a letter we received from him 
yesterday, he explained as follows: ``Disclosure of such 
information could seriously prejudice law enforcement efforts 
by alerting potential defendants to which potential witnesses 
and sources of information the government has obtained.''
    To your understanding, Mr. Hochberg, is that the same 
reason why you were advised not to discuss the details of those 
cases?
    Mr. Hochberg. Precisely.
    Mr. Cartwright. All right. But, Mr. Hochberg, I'm guessing 
it is a matter of some frustration to you that you cannot share 
more information about the allegations of misconduct concerning 
these four individuals. Is that right?
    Mr. Hochberg. Yes. I mean, they're under investigation. I 
don't have all the facts, so I would only be making conjecture.
    Mr. Cartwright. And I share your frustration, Mr. Hochberg, 
but I understand why we can't do that here. It would be a 
scandal if something this committee did allowed potential 
defendants to avoid prosecution. And while I understand you 
can't share with us the details about those four individuals, 
the question is, what, if anything, can you tell us about any 
employment action the Bank has taken against these individuals 
to date?
    Mr. Hochberg. There are four employees who are subject to 
an investigation, three of which have been separated from the 
Bank, one is still on administrative leave, because it was only 
discovered in the last 6 or 8 weeks. Each one of those is 
subject to a potential criminal investigation and criminal 
charges. So we are working with the Inspector General, 
Department of Justice, that is doing a full investigation.
    Mr. Cartwright. Now, in terms of timing, Mr. Hochberg, as I 
understand it, the Bank took employment action against these 
individuals before The Wall Street Journal article first 
appeared. Am I correct in that?
    Mr. Hochberg. Oh, yes, months before.
    Mr. Cartwright. So at the time The Wall Street Journal 
reported back in June of this year that the Bank has suspended 
or removed four individuals for misconduct, the Bank was not 
only aware of the allegations, but it had already taken action. 
Correct?
    Mr. Hochberg. That's totally correct.
    Mr. Cartwright. In a letter we received from the Inspector 
General yesterday--and I do ask for unanimous consent to enter 
this letter into the record.
    Mr. Jordan. Without objection.
    Mr. Cartwright. He explains that, to date, he has not found 
evidence of widespread employee misconduct or any systemic 
employee involvement in fraud schemes at the Bank.
    My question is, in those instances in which employee 
misconduct has been alleged to have occurred, where did the 
tips come from and who asked the IG to investigate?
    Mr. Hochberg. In each of those cases, they came from other 
employees, who either referred the matter initially to their 
supervisor or the general counsel, and then later they were on 
referred to the Inspector General.
    Mr. Cartwright. Would that be a healthy indicator that the 
ethical training that you've mentioned and reporting that the 
Ex-Im Bank has developed over the years has been working?
    Mr. Hochberg. Yes. I mean, I would obviously prefer to have 
no fraud at the Bank, but I--if we're going to--if it comes up, 
the fact that our employees are alert to it and want to root 
that out is something I admire in our employees.
    Mr. Cartwright. And would you briefly explain why a 
commitment to ethics is important to you in the culture at the 
Ex-Im Bank.
    Mr. Hochberg. Very simply, I mean, we operate at the public 
trust, we're here to level the playing field and to support 
jobs, and so it's important that everybody at the Bank operate 
at the highest ethical standards. It starts with top 
management, it continues through the training we do and making 
sure we have a culture that when people see something that's 
awry or suspicious, that they alert the proper authorities so 
they can take a look at it.
    Mr. Cartwright. Well, thank you, sir. And I'm going to 
yield back to the chairman.
    Mr. Jordan. I thank the gentleman. We'll--before 
recognizing the other gentleman from Pennsylvania, I would just 
ask unanimous consent to enter into the record the CBO study, 
Fair Value Accounting, which estimates that the Bank will cost 
taxpayers $2 billion over the next few years. Without 
objection, that will be put into the record as well.
    Mr. Jordan. We'll now recognize the gentleman from 
Pennsylvania, Mr. Meehan.
    Mr. Meehan. I want to thank the chairman. I thank our 
witnesses today for their presence here in helping us to 
identify a little more clarification of just one of the issues 
I know that's being raised right now, but let me just do some 
background in general.
    Mr. Hochberg, the Export-Import Bank, it does, what, about 
$50 billion a year now in loans? Is that accurate?
    Mr. Hochberg. That's a little high. We're----
    Mr. Meehan. It's a little high?
    Mr. Hochberg. Last year we did $27.4 billion.
    Mr. Meehan. Oh, is that right? Okay. I'm looking at a 
different statistic, but I see----
    Mr. Hochberg. Well, export supported, so in other words--
because we don't do 100 percent of any loans----
    Mr. Meehan. Right.
    Mr. Hochberg. --so export supported. Last year we did $27.4 
supporting about $36 billion worth of exports.
    Mr. Meehan. And most of those were--we see frequently 
discussions about big companies that are reportedly part of 
this process, but am I accurate in saying that--Mr. Bentivolio 
and I are having a little trouble here getting eye contact with 
his--but am I accurate in my understanding that actually about 
90 percent of those loans go to small businesses?
    Mr. Hochberg. Yes. That's correct.
    Mr. Meehan. So those are job creators back in the 
communities, and people--you--at the outset of your testimony, 
you identified that the reason that you're in this market is 
that they were not able to get financing at traditional bank 
markets. Do you have a second where you could explain that?
    Mr. Hochberg. Certainly. I mean, you know, one, I was a 
small business owner myself in a family business for 20 years, 
and I remember this personally and I see this when I meet with 
small business owners around the country: It is always more 
difficult for a small business owner to get financing, ever 
more so when they also have customers overseas and they're 
exporting. It's still more foreign. We're becoming more of an 
export Nation, but generally speaking, it's even more difficult 
when they're exporting.
    Mr. Meehan. The--Ms. Katz, I know you raised some points 
about confidence within the institution. I'm not--I did have to 
laugh to myself. You were concerned because 42 percent of the 
employees within the institution seemed to have confidence in 
the standards of honesty, integrity. What do you think the 
percentage of American citizens would be if they asked about 
the sense of confidence of honesty and integrity of Members of 
Congress today.
    Ms. Katz. I'm not sure that's--that's the right standard, 
Congressman, that I would use.
    Mr. Meehan. I just--the people are cynical about a lot of 
things you see these days, but I just sort of say that 
facetiously. But very seriously, I mean, I'm as concerned as 
anybody about the concept of fraud at an institution like this, 
but as a former Federal prosecutor, I have to say to you that 
the concept of fraud at any institution in which there's 
transactions that take place is really not that foreign a 
concept; in fact, we deal with it on a regular basis. 
Unfortunately, it seems to be human nature.
    Would you explain to me why we can't resolve these issues 
by effective investigations and prosecutions like we do in many 
parts of our society?
    Ms. Katz. We do resolve many of them, dozens of cases in 
the--with respect to the Bank; however, I think that we----
    Mr. Meehan. Dozens? Sorry. Have there been dozens of 
prosecutions?
    Ms. Katz. Certainly.
    Mr. Meehan. There have been dozens? Okay.
    Ms. Katz. Oh, certainly, if not more than that. I think, 
you know, the--the issue is that there is a record of 
mismanagement within the Bank and a lack of standards within 
the Bank that create an environment that is particularly ripe 
for fraud and other wrongdoing, and that's the concern. I don't 
think that it's good enough to say, well, there's corruption 
everywhere or there's fraud everywhere, and therefore we can 
expect it at the Bank.
    I think the expectation should be that our public 
institutions are doing everything in their power to minimize 
the amount of fraud and corruption that exists, and I don't 
think that that's necessarily the case here.
    Mr. Meehan. Ms. Katz, I--or Mr. Hochberg, I----
    Mr. Hochberg. Well, let----
    Mr. Meehan. Let me ask a question and then you can respond 
to it. I mean, I had a period where I actually had the 
responsibility to sit on the corporate fraud task force in my 
previous time as a U.S. Attorney, because we were seeing this 
kind of issue throughout corporate institutions all the way--
one of the resolutions, of course, were--in addition to 
increased prosecutions were the beginning of better compliance, 
the beginning of better kinds of internal controls.
    Mr. Hochberg, now aware of some of the concerns, are you 
prepared and are there steps in place to begin to put the kind 
of compliance programs and internal controls that would give 
the taxpayers confidence that decisions that are being made are 
being made on the merits and not for any kind of nefarious 
purposes?
    Mr. Hochberg. We are continually--excuse me. We have an 
auditing firm, an outside auditor, Deloitte and Touche, we have 
an audit committee, we have the General Accountability Office, 
the Inspector General, all of which give us recommendations on 
how to make the Bank run better, how to run better, more 
efficiently with less incidents or less potential fraud, waste 
or abuse, and we have taken those recommendations and we're 
continue working to improve that.
    I do want to make one comment. When Ms. Katz said there are 
dozens, there are only four employees. There may be companies 
we look at on the outside trying to defraud the Federal 
Government, but that's separate from employees. So I think we 
just need to make sure those are really two separate issues.
    Mr. Meehan. Well, thank you for drawing that clarification.
    And, Mr. Chairman, my time is up.
    Mr. Jordan. Thank the gentleman.
    The gentlelady from Illinois, the Honorable Ms. Duckworth 
is recognized.
    Ms. Duckworth. Thank you, Mr. Chairman. And I'd like to 
thank my colleague from Pennsylvania, Mr. Meehan, for 
mentioning the Ex-Im Bank's support for small businesses. In 
fact, last summer, over 100 businesses attended a forum just in 
my one district alone in Schaumburg, Illinois, to learn more 
about the benefits of Ex-Im Bank. Since then, the businesses in 
my district have told me time and again how the Bank's services 
keep them competitive in the global marketplace.
    Ex-Im Bank is a job creator and it plays a critical role in 
the economy in my home State of Illinois, which is the fifth 
largest exporting state in our country. At no cost to the 
taxpayers, it supported 1,600 jobs in my district alone and 
more than 200,000 across the country. And, in fact, 2 weeks 
ago, with grave concerns for the Ex-Im Bank, the National 
Association of Manufacturers local chapter in my district asked 
for a meeting with me, where they brought up the importance of 
renewing the Ex-Im Bank's charter. And, in fact, attending that 
meeting, in addition to the vice-president of technology, 
factory automation at Bosch Rexroth Corporation, I also had the 
president of the National Marine Manufacturers Association, 
which is a collection of small businesses who build pleasure 
boats for the entire--around the Nation.
    And one particular business in my district, Quality Float 
Works, in Illinois, who just won a $3 million contract with the 
nation of Saudi Arabia to provide some services and yet they 
cannot get the loan guarantee that they need for the million 
dollars in supplies and equipment. They will lose this contract 
that they've been competing for for many, many years, and it 
equates to an entire shift that they would add to their 
factory, people that will be out of work in my district if they 
can't get this loan guarantee from the Ex-Im Bank.
    In short, the Bank is critical to small businesses, 
manufacturers and job creators in my district and all over the 
United States. I agree that no organization is immune from 
having bad actors within its ranks at some point. The question 
is what processes does the organization have in place to ensure 
that bad actors are caught and held accountable.
    I wanted to clarify something that Ms. Katz said. She said 
that of the dozens and dozens of cases that have been--have 
been referred to prosecution, but in fact, the Office of the 
Inspector General has said that, and--has not found any 
evidence of systemic corruption among Ex-Im Bank employees. 
According to the OIG, bank employees have not been implicated 
in any of the 70 instances in which fraud was referred to 
prosecution.
    And my understanding, Mr. Hochberg, is that these four 
employees that are currently under investigation were actually 
discovered by the Bank itself. Is that not correct?
    Mr. Hochberg. That is correct.
    Ms. Duckworth. Could you--could you talk a little bit about 
the Bank's role in the global economy? What are our competitors 
doing? Would U.S. businesses fall behind without the Ex-Im 
Bank?
    Mr. Hochberg. Thank you, Congresswoman. And we actually do 
issue, and just recently issued to Congress the end of June an 
annual competitiveness report. This is a report that is 
mandated by Congress where we survey customers and exporters 
and other export credit agencies to see how competitive we are. 
As I mentioned to Congressman Cartwright, there are 59 other 
export credit agencies and government agencies supporting 
exports around the world. We are in a period of the most brutal 
competition for exports and, hence, jobs. Country after country 
is trying to export their way out of their economic malaise, 
and so U.S. companies, and again, 90 percent of the companies 
we work with are small businesses as defined by the SBA, have a 
very tough time getting both the financing and competing head 
to head.
    So we make sure if the private sector isn't there and there 
is a reasonable assurance of repayment, that we can step in and 
make sure that sale happens and supports jobs in our country, 
not overseas.
    Ms. Duckworth. One of the things, Mr. Hochberg, that 
Quality Float Works told me about their concern with Saudi 
Arabia and this one contract in particular that they've been 
fighting for 3 years to finally win is the slow pay aspect. Can 
you talk a little bit about what Ex-Im does in terms of helping 
small businesses be able to survive after they provide services 
for people that do pay but are slow?
    Mr. Hochberg. That is a particular problem. It's a 
particular problem in a number of countries, the one you 
mentioned, and I've heard that frequently mentioned.
    What we do is we provide--we provide insurance. So a 
customer, a U.S. company, the way they buy theft insurance or 
fire insurance, we will sell them credit insurance so they can 
insure their receivables, so that they know they're going to 
get paid, and they can also give dating. So if they provide, 
say, 60 or 90-day terms to their customer, once they have the 
receivable insured by the U.S. Government, they can go to their 
bank and borrow against it. It becomes a collateral, part of 
what they call their borrowing base, so then they can get the 
cash flow, and we could also assist in that. We provide a 90 
percent guarantee, if needed by a local bank, to make the loan, 
to give them working capital so that they have the cash flow to 
fulfill the order.
    Ms. Duckworth. Thank you. I'm out of time. I yield, back, 
Mr. Chairman.
    Mr. Jordan. Thank the gentlelady.
    Mr. Hochberg, does Mr. Gutierrez still--is he still 
employed at the Ex-Im Bank?
    Mr. Hochberg. He is not an employee.
    Mr. Jordan. What were the financial terms of Mr. 
Gutierrez's dismissal from the Bank?
    Mr. Hochberg. He was dismissed from the Bank early----
    Mr. Jordan. Is he receiving any compensation now, any 
taxpayer compensation now, any compensation from the Bank?
    Mr. Hochberg. He is not.
    Mr. Jordan. All right. Mr. Hochberg, there have been four 
people identified in the Wall Street Journal as being part of 
this--being under investigation, four employees. Are the other 
three also--have the other three also been dismissed from the 
Bank?
    Mr. Hochberg. Three, including Mr. Gutierrez, has been 
dismissed. One is on administrative leave pending 
investigation.
    Mr. Jordan. And the one on administrative leave is still 
receiving compensation from the Bank?
    Mr. Hochberg. That is correct.
    Mr. Jordan. All right. Can you tell me who the other three 
individuals are? Can you name those other three?
    Mr. Hochberg. I cannot name them. I've been asked, since 
they're under criminal investigation--Mr. Jordan, as you know, 
you're an attorney, I don't want to jeopardize that case so 
they cannot be prosecuted to the full extent of the law?
    Mr. Jordan. Who has specifically told you that you can't 
tell us--identify who those individuals are?
    Mr. Hochberg. Well, you--the letter from the Inspector 
General----
    Mr. Jordan. No, no. I'm asking you, did the Inspector 
General say to you, Mr. Hochberg, don't tell Congress the names 
of the other three individuals under investigation? Did he 
explicitly tell you that, make that statement to you?
    Mr. Hochberg. I was told by our counsel----
    Mr. Jordan. I'm not asking about your counsel, I'm asking 
about the Inspector General.
    Mr. Hochberg. Not to discuss this. Yes, he said not to 
discuss this.
    Mr. Jordan. He said not to disclose the names of the other 
three individuals under investigation, one on paid leave, still 
receiving compensation? He said don't tell who--don't tell the 
American people, don't tell Congress who they are?
    Mr. Hochberg. They're under investigation. And you know and 
I know I cannot discuss this.
    Mr. Jordan. What statute says you can't?
    Mr. Hochberg. I'm trying a make sure that--if they've done 
wrongdoing, I want them to be prosecuted and removed, and to 
the full extent of the law.
    Mr. Jordan. Is there any law that says you can't disclose 
to a congressional committee doing appropriate investigation 
about an agency where there is fraud, alleged fraud, alleged 
bribes taking place, and you can't disclose those names? Can 
you name the statute?
    Mr. Hochberg. Mr. Chairman, I would certainly----
    Mr. Jordan. Because I can't name one.
    Mr. Hochberg. I'm not an attorney, but I'm not going to----
    Mr. Jordan. I'm not either.
    Mr. Hochberg. --jeopardize the case.
    Mr. Jordan. But I know there's no statute.
    Mr. Hochberg. I am not going to jeopardize the case because 
I would like these employees, if they are guilty, to be found 
guilty and to be prosecuted to the full extent of the law.
    Mr. Jordan. So do we, but we'd also like to know that 
information when we're doing an investigation.
    We had this debate--just last week, Mr. Gowdy raised this 
same question. We always--oh, we can't give you information, we 
can't give you documents because there's an ongoing 
investigation.
    Well, we'd like to know, when will you--when do you think 
you will be able to tell us who those other three are?
    Mr. Hochberg. Mr. Jordan, I will read you what the 
Inspector General said. ``A longstanding policy and practice of 
Federal law''----
    Mr. Jordan. I want to know what the Inspector General told 
you. I'm not asking the Inspector General, Mr. Hochberg; I'm 
asking you.
    Did the Inspector General specifically tell you, don't tell 
this committee who is under investigation? Did he say that to 
you?
    Mr. Hochberg. I am reading from this letter, and I am not 
disclosing that information----
    Mr. Jordan. I can read a letter. I'm asking you. You're the 
witness today under oath. I'm asking you, why can't you tell us 
who the four people are? We know one, and he just took the 
Fifth. We'd like to know the other three.
    Mr. Hochberg. I cannot disclose those names to the public.
    Mr. Jordan. I mean, when do you think you will be able to? 
Sometime after September 30th? Not before September 30th?
    Mr. Hochberg. It depends if they're indicted. If they're 
indicted, it becomes a public--then it becomes public 
information.
    Mr. Jordan. Let's go to this. Let's change gears. Did you 
give $10 million--did the Export-Import Bank give $10 million 
to Solyndra in 2011?
    Mr. Hochberg. No, we did not.
    Mr. Jordan. Our understanding is $10 million in loan 
guarantees occurred. John Scott, former vice president of 
Solyndra, touted the expedited manner in which Ex-Im Bank 
granted Solyndra loan guarantees, stating it benefited from a 
``fast due-diligence process.''
    The Export-Import Bank did not help in any way financing 
Solyndra?
    Mr. Hochberg. Well, that wasn't the original question. We 
financed a company in Belgium that purchased products from 
Solyndra.
    We generally do long-term financing of foreign buyers who 
are looking at U.S. goods versus Chinese goods versus foreign 
goods, and to--and if they require----
    Mr. Jordan. So you did help with Solyndra.
    Mr. Hochberg. No, we financed a Belgian company that----
    Mr. Jordan. No, I understand how it works. I understand how 
the Export-Import Bank works. But it was tied to Solyndra, 
correct?
    Mr. Hochberg. It was--they made a purchase from Solyndra, 
that's correct.
    Mr. Jordan. Well, yeah, that's how the Bank works.
    So how about Abound Solar? Did you do a $9.2-million loan 
guarantee to Abound Solar?
    Mr. Hochberg. I'd have to look at what the--look, we make 
loans, Mr. Chairman, to the foreign buyers who's buying from 
U.S. companies.
    Mr. Jordan. Right. I understand. Both Abound Solar and 
Solyndra went bankrupt. We have had--this committee has done a 
lot of examination of the loan guarantee program. And we just--
I just found it amazing that you were also tied in with the 
very companies in the loan guarantee program which lost 
taxpayer money to Solyndra, Abound Solar, Beacon Power, and 
others, that you've given money to the--to benefit those same 
companies.
    Let me go back to you, Ms. Katz, real quickly. You 
mentioned the number 74 in your testimony. Tell me about that 
again.
    Ms. Katz. Those are administrative actions that were 
reported taken by the Inspector General following integrity 
investigations at the agency.
    Mr. Jordan. Closed investigations where they found----
    Ms. Katz. Well, what's referred to--there's not a lot of 
transparency, as you might imagine, with these things. But 
administrative actions are responses by the Ex-Im Bank to stop 
transactions, cancel policies, or protect funds at risk based 
upon investigative findings.
    Mr. Jordan. All right. Thank you.
    Last thing before I run out of time here, Mr. Hochberg. 
Again, just for the record, no one--the Inspector General 
didn't explicitly tell you not to share with Congress the 
identities of the other three individuals under investigation, 
yes or no?
    Mr. Hochberg. I have been advised not to disclose the names 
of the individuals who are under investigation, not----
    Mr. Jordan. Okay.
    Mr. Hochberg. --to jeopardize their case.
    Mr. Jordan. And who was that? Who advised you not to? Your 
counsel?
    Mr. Hochberg. Our counsel.
    Mr. Jordan. Ex-Im counsel?
    Mr. Hochberg. And working with the Inspector General.
    Mr. Jordan. Who advised you, counsel or Inspector General?
    Mr. Hochberg. Mr. Jordan, both. I met with the--I meet with 
the Inspector General on a regular basis. I meet with him every 
month, as I mentioned to you. And when these have come up, he 
has said not to discuss them.
    Mr. Jordan. All right. I thank the gentleman.
    I will yield now to Ms. Kelly. The gentlelady is recognized 
for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    I'm glad that this panel is here today because I know how 
critical Ex-Im is to my district. Three hundred and one 
companies and 36,000 jobs in my State depend on Ex-Im 
reauthorization.
    So, Ms. Katz, I'd like to speak about your testimony. I'd 
like to know a little bit more about the research that went 
into your assertions, because you seem to rely on reports from 
the IG and GAO as the basis for your assertions.
    Did you personally conduct any type of investigations into 
allegations of fraud or corruption at Ex-Im Bank?
    Ms. Katz. I reported on what the Inspector General has 
issued and his reports to Congress, as well as the Government 
Accountability Office. And I believe that both of those bodies 
are considered to be pretty reputable when it comes to their 
reports.
    Ms. Kelly. Did you interview whistleblowers with direct 
knowledge, for instance?
    Ms. Katz. No, I did not.
    Ms. Kelly. Okay. So you personally didn't do any 
investigation.
    Ms. Katz. I just do data analysis.
    Ms. Kelly. Okay.
    Did you ever speak with the IG to understand their 
assessment as to whether the Bank, in fact, is rife with fraud 
or corruption?
    Ms. Katz. I didn't need to do that. Based on the numbers 
that the IG reported, it was pretty evident what the degree of 
fraud is, as they reported it.
    Ms. Kelly. Okay. So let me get this straight. You have 
testified that there is a record of fraud and corruption at Ex-
Im Bank, and you haven't personally conducted any investigation 
into such allegations, nor have you ever spoken to the IG for 
their views on whether such a record exists. Is that right?
    Ms. Katz. Well----
    Ms. Kelly. Is that right?
    Ms. Katz. --Representative, their views are pretty plain. 
And if you'd like to see the reports----
    Ms. Kelly. I'm just asking you, is that right?
    Ms. Katz. If you would like to see the reports in which 
they make those views plain, then I'd be happy to send those to 
you.
    Ms. Kelly. But is that right, what I'm asking you?
    Ms. Katz. Are you asking me----
    Ms. Kelly. I'm asking you----
    Ms. Katz. --am I a police detective? I'm not.
    Ms. Kelly. No, I didn't ask you that. I just asked you have 
you personally conducted any investigations or if you've ever 
spoken to the IG. That's all I'm asking.
    Ms. Katz. I have not spoken to the IG. I've read his--the 
office and IG's reports. And I don't do criminal 
investigations, but I do do data analysis.
    Ms. Kelly. Okay. Thank you.
    Ms. Katz. Uh-huh.
    Ms. Kelly. It would seem to me that, on this issue of 
whether the Ex-Im Bank is rife with employee fraud and 
corruption, this committee should be hearing from the folks who 
have firsthand knowledge about any such investigations, namely 
the IG.
    Fortunately for us, the IG sent a letter, which has been 
talked about. And when we take a look at the letter, the IG 
expressly states that, since 2009, in the 71 indictments his 
office has secured against individuals who attempted to defraud 
the Bank, none were against employees of Ex-Im Bank.
    Ms. Katz, do you agree that it's important for the public 
to understand that none of the indictments the IG has secured 
have involved Ex-Im Bank employees?
    Ms. Katz. Well, the public should have all information 
about the Bank.
    Ms. Kelly. But do you--I just need you to answer that 
question.
    Ms. Katz. I think I am. The fact that there haven't been 
indictments doesn't necessarily mean that there hasn't been 
corruption.
    Ms. Kelly. Right. But it doesn't mean that there has, 
either.
    It seems, to me, pretty relevant that there are no criminal 
indictments or information for corruption at the Bank since 
2009 and that all criminal prosecutions have been brought 
against companies and individuals outside the Bank who seek to 
steal taxpayers' dollars.
    Ms. Katz. My testimony dealt with fraud cases specifically. 
I don't think that I made any allegations with reference to 
employee corruption. I was very careful about that.
    Ms. Kelly. Another thing the IG notes in his letter to the 
committee is that, to date, his office has not developed 
evidence of widespread employee misconduct or systematic 
employee involvement in fraud schemes at the Bank.
    And just so we're clear, up until today, were you aware 
that the IG's Office found no evidence of any systemic employee 
involvement in any fraud scheme? Or are you just learning that 
today?
    Ms. Katz. I'm aware of the fraud investigations that the IG 
has undertaken, and that's where my focus has been.
    Ms. Kelly. Okay. Thank you.
    I yield back.
    Mr. Jordan. Thank the gentlelady.
    The gentleman from Maryland, the ranking member of the 
committee, is recognized for 5 minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Hochberg, there is a Bloomberg article dated July 25th, 
2014, entitled ``House to Subpoena Ex-Im Worker as Time Runs 
Out for the Bank.''
    I ask unanimous consent that it be admitted into the 
record. Mr. Chairman?
    Mr. Jordan. Without objection.
    Mr. Cummings. Thank you very much.
    Mr. Jordan. And in that article, Chairman Issa says, ``Many 
of us support the concept of making sure there's an 
availability of funds to support competitiveness in exports, 
but we have to make sure that the American people believe it's 
being spent fairly and honestly.''
    Republican Members are concerned about what they have 
called a culture of corruption at the Bank based on one Wall 
Street Journal article identifying four incidents of employee 
misconduct. However, we know that since 2009 the IG has secured 
71 indictments or criminal charges against parties who have 
attempted to defraud the Bank, none of which were against 
employees of the Ex-Im Bank.
    That tells me a very simple fact: that they exist across 
the government--and we see this across government. There are 
individuals who create business entities whose sole intent is 
to defraud the government, and in this case defraud the Ex-Im 
Bank. There seems to be a legitimate oversight concern for the 
outside parties that are attempting to defraud the Bank, and 
that is very, very important.
    Mr. Hochberg, I would like to discuss some of the antifraud 
efforts at the Bank and the results of those efforts. And I 
want to go through these things because I think that we need to 
be clear on the record of what's going on at the Bank and 
what's not. Because there are people whose careers are--could 
be tainted based on inaccurate information.
    One indicator of fraud is the default rate. Is that 
correct? Is that one of the things that you all look at?
    Mr. Hochberg. Yes, sir.
    Mr. Cummings. Currently, your default rate is approximately 
0.2 percent. Is that correct?
    Mr. Hochberg. Actually, yes, a drop less than that even.
    Mr. Cummings. I'm sorry?
    Mr. Hochberg. Slightly less than that.
    Mr. Cummings. What is it?
    Mr. Hochberg. It's 0.194 percent, less than one-fifth of 1 
percent.
    Mr. Cummings. Mr. Hochberg, in your testimony, you state 
that the Bank works with its IG to establish an effective 
monitoring and enforcement program for fraud and ethical 
misconduct. The IG has notified the committee that it works 
with the Bank employees to identify potential fraud schemes in 
the early stages.
    Do you agree that Bank employees play an important role in 
detecting fraud?
    Mr. Hochberg. Without question.
    Mr. Cummings. And why do you say that?
    Mr. Hochberg. Well, because in these four cases with the 
other employees, it was detected by employees. And our 
employees go through a rigorous ethical training, as I 
mentioned, upon joining the Bank. We actually even have a handy 
guide they can keep at their desk.
    We have a seven-member staff that is the ethics department 
in the legal counsel's office that fields questions: How do I 
deal with situations? Is this an ethical behavior?
    We also just began conducting this year training, how to 
detect fraud in outside agencies, outside contractors, outside 
entities.
    Mr. Cummings. So this is a big--it sounds like this is a 
big deal for you all.
    Mr. Hochberg. It's a very big deal. Listen, the public 
trust is essential for us doing a good job. And so we take that 
very seriously, I take that very seriously, and so does our 
ethics staff.
    Mr. Cummings. Now, the IG also stated that the most common 
fraud schemes involve outside parties obtaining loans through 
false representations and submission of false documents. Is 
that correct, Mr. Hochberg?
    Mr. Hochberg. That is correct.
    Mr. Cummings. However, Republicans ignore this fact and 
instead choose to examine allegations of corruption reported in 
the Wall Street Journal with no other information.
    I'm concerned with the evidence of outside parties 
attempting to defraud the Bank. These were incidents which were 
revealed following an IG investigation based on referrals by 
Bank employees.
    Mr. Hochberg. That's correct.
    Mr. Cummings. So it is concerning that my Republican 
colleagues almost ignore the evidence of misconduct by 
outsiders and the role of Bank employees in identifying 
potential fraud. Instead, the majority focuses on what appears 
to be a few isolated incidents.
    And don't get me wrong. If somebody is doing something 
wrong, we ought to deal with that. But, again, I just wanted to 
make sure the record is clear.
    And just one other thing, Ms. Katz. In answering Ms. 
Kelly's question, Congresswoman Kelly's question, did I hear 
you say you made no allegations of employee corruption? Is 
that--I wrote it down. Is that what you said?
    Ms. Katz. Yes, sir.
    Mr. Cummings. Very well.
    Thank you very much, Mr. Chairman.
    Mr. Jordan. I thank the gentleman.
    Isn't it true, Ms. Katz, that when you do the outside fraud 
investigation, that's when you find out that there may be some 
problems on the inside? Isn't that how it normally works, Ms. 
Katz?
    Ms. Katz. Well, certainly if there is widespread fraud, it 
should raise questions or at least concerns that the internal--
--
    Mr. Jordan. But isn't that how Mr. Jefferson was 
identified? Isn't that how these four individuals who are now 
being talked about today were identified? There was an outside 
concern, and then that caused the focus on the inside, and you 
found employees who were doing some things wrong.
    Ms. Katz. Yes.
    Mr. Jordan. Okay. I mean, that's why--I mean, it's all 
important, but that's what leads to potential wrongdoing on 
folks on the inside.
    Ms. Katz. Exactly.
    Mr. Jordan. The gentleman from South Carolina is recognized 
for 5 minutes.
    Mr. Mulvaney. Thank you, Mr. Chairman. I thank both you and 
the ranking member for allowing me the courtesy of being here 
today.
    This is not my first Export-Import Bank hearing. As you can 
probably imagine, we've had several over in House Financial 
Services. So it's not the first time I've heard some of the 
numbers that we've discussed today, some of the testimony that 
we've discussed today.
    But I just want to encourage, you're not hearing both sides 
of the story. We hear, for example, Mr. Cartwright correctly 
pointed out in his opening testimony that 87 percent of the 
transactions at the Export-Import Bank involve small business. 
There's a flip side to that, which is that they're supposed to 
have 20 percent, just 20 percent, of their volume go to small 
business. They've missed that target regularly. So while the 
transactions are high, the number of dollars that actually go 
to small business are very small, and smaller than they're 
obligated to be by law.
    We heard Mr. Hochberg talk about how he's only interested 
in leveling the playing field. Fair enough. Only one-third of 
the Bank--what the Bank does actually goes toward leveling the 
playing field. You could get rid of two-thirds of the Bank 
tomorrow and still have the one-third of the Bank that is 
actually used to level the playing field.
    Finally, Mr. Cartwright correctly mentioned out that 
oftentimes this has not been controversial. I don't have to 
remind my Democrat friends, it was actually then-Senator Barack 
Obama in 2008 who said that this was corporate welfare that 
needed to be cut back. So there are two sides to those stories.
    What I want to focus on most now today, though, is jobs, 
because we hear a lot of talk in here about jobs. And I think 
if we take a close look at how the Bank talks about jobs, we 
might get some insight into the--let's call it the unhealthy 
culture at the Export-Import Bank, what Ms. Katz calls, I think 
correctly, this record of mismanagement.
    Let's look at how they talk about jobs. The GAO in May of 
2013 was extraordinarily critical of how the Bank talked about 
jobs. They were concerned with how the Bank counted. For 
example, they don't make distinctions between full-time and 
part-time work. They don't make distinctions between domestic 
jobs and international jobs. They haven't figured out a way yet 
to count the jobs that, for example, are created by Boeing in 
Japan, and that goes into the number.
    They expressed concern, the GAO did, about the language 
that they use. They say ``support'' jobs. No one knows what 
that means. It's not ``create'' jobs. And I don't think anybody 
is taking the position, at least Mr. Hochberg is not, that he's 
created 1.2 million jobs. We use this nebulous term called 
``support'' that no one really knows what it means, and the GAO 
says that that's troublesome.
    But it's why they count the jobs that I want my colleagues 
to think about the most. The GAO report asked the Bank, why do 
you report this? Are you obligated by statute to tell Congress 
about the number of jobs that you support? And the GAO said, 
no, one of our board of trustees members asked us to start 
doing that a couple years ago so that we could make it clear to 
Congress the good that we do.
    I suggest to you that it's possible that maybe they fudge 
the numbers a little bit and that it's insight into what is 
going on at the Bank. And my contention is that what we see 
here is why--this is a bureaucracy, a bureaucracy that is not 
primarily interested in helping small business or creating or 
supporting jobs, but a bureaucracy that's first and foremost 
interested in justifying its own existence and maintaining its 
own level of funding.
    Ms. Kelly asked a good question of Ms. Katz, if she talked 
to the IG, she talked to the GAO; she has not. I have. We had 
that opportunity in House Financial Services. The GAO and the 
IG over the last 4 years have identified 76 difficulties within 
the Bank, 76 shortcomings, some of which may have led to some 
of the outside fraud that we talked about today.
    One of the things the Bank was not doing is actually making 
sure that the outside lenders were doing credit checks on 
people who were using the Bank facilities--same thing that 
Fannie Mae and Freddie Mac were not doing before the housing 
crisis.
    Seventy-six meaningful things that the IG and the GAO said 
were wrong at the Bank. Half of them have not been fixed in the 
last 4 years. Nine of them the Bank doesn't even admit are a 
problem, and they're refusing to try and fix them.
    So I think that, as we take a look over what the culture is 
at the Bank and how the Bank operates and why the Bank 
operates, leads to my question, which is this, Mr. Hochberg: 
the thing that we did not have at Financial Services, which is 
the results of the Federal Employee Viewpoint Survey results, 
which say that only 42 percent of your employees have a--think 
that the organization's leaders maintain high standards of 
honesty and integrity, and just about half feel like they can 
disclose suspected violations of law.
    You've been there 5 years. The Obama administration has 
been in charge for 5 years. Where does this come from, if not 
from the top?
    Mr. Hochberg. Congressman Mulvaney, I appreciate your 
coming here and providing these questions because you have here 
and at the Financial Services Committee.
    I take very seriously the Federal Employee Viewpoint 
Survey. We do it every year. We encourage our employees to fill 
it out.
    There are many areas the Bank excelled. There are a number 
of areas of dissatisfaction. We have a lot of dissatisfaction 
on workload. The workload more than doubled in the last few 
years. People do not have the resources. Congress has added 
those resources.
    And when you look at the survey, when you look at both 
positive and neutral, if you put those two together, Ex-Im had 
about a 75-percent rating. Government-wide was 80 percent. 
We're short----
    Mr. Mulvaney. Where does the 42-percent----
    Mr. Hochberg. We are definitely short----
    Mr. Mulvaney. Where does the 42-percent approval rating, 
positive approval rating, on leaders' high standards of honesty 
and integrity come from, if not from the top?
    Mr. Hochberg. This is an area we're working on. This is 
not--it's an area for improvement. There are areas in this 
survey we excelled and some areas that need improvement.
    Mr. Mulvaney. We could go further if you want to, and I 
could ask you about the approval rating on ``I have a high 
level of respect for my organization's senior leaders,'' 38 
percent. ``How satisfied are you with the policies and 
practices of your senior leaders,'' 24.8 percent.
    It comes from the top, doesn't it? You've had 5 years to 
work on those types of things, haven't you?
    Mr. Hochberg. Congressman Mulvaney, we have a high ethical 
standard. We have seven people in our ethics department. I look 
at our default rates, I look at our performance to Congress, I 
look at our financial performance. We have 25 years of 
unqualified clean audits from outside, independent auditors, 
from PricewaterhouseCoopers for a number of years and Deloitte 
Touche. They would indicate if there was a problem at the Bank; 
they would show up in those numbers.
    Mr. Mulvaney. Thank you very much. I've already overstayed 
my time.
    Mr. Chairman, Mr. Ranking Member, I would encourage you if 
you decide to further pursue this to bring in the IG and bring 
in the GAO and ask them about what they think, if they think 
the Bank has lived up to their expectations in getting their 
house in order.
    And I appreciate the time and the effort----
    Mr. Cummings. Mr. Chairman?
    Mr. Jordan. The gentleman from Maryland.
    Mr. Cummings. I ask unanimous consent that he be allowed--
Mr. Mulvaney is on--I'm not on Financial Services. But he has 
made a lot of allegations. And I just--I saw you scribbling 
stuff. I would just like to hear what his answer is. Because, I 
mean, we had wonderful testimony from Mr. Mulvaney.
    Mr. Jordan. I----
    Mr. Cummings. I'd like to hear it from the witness.
    Mr. Jordan. --agree. Mr. Hochberg can respond.
    Mr. Hochberg. Thank you.
    Well, there are a number of allegations. There's a lot 
going on here. Let me try and respond to the few notes I took.
    One, this year, about 22, 23 percent of all dollars are 
going to small-business entities, so in excess of the 20 
percent that is required by Congress, that is a ``should 
reach'' by Congress. We have put more efforts into reaching 
small businesses and do more with small businesses in terms of 
dollar volume than the Bank has ever done. We have done more 
loans to small businesses in these 5 years than in the previous 
8 years combined. So I am----
    Mr. Jordan. Is that 22 percent a direct--defined as 
directly going to small business, or is that routed through 
larger corporations who then work with small businesses?
    Mr. Hochberg. No, that actually is direct.
    Mr. Jordan. Okay.
    Mr. Hochberg. If you add----
    Mr. Jordan. I just want to be clear.
    Mr. Hochberg. If you add the indirect, which I believe 
actually should be part of it--it's something we've asked 
Congress to allow because, frankly, large companies in district 
after district--Congresswoman Duckworth----
    Mr. Jordan. Are you saying the GAO is wrong? Mr. Mulvaney 
cited the GAO said that it wasn't 20 percent. You're saying 
they're wrong?
    Mr. Hochberg. This year, this year, the year we're in, 
we're 9 months into the year, we're at 22, 23 percent.
    Mr. Jordan. All right.
    Mr. Hochberg. That was one question.
    In terms of the jobs number, GAO actually did not--they 
validated our methodology. We used the Bureau of Labor 
Statistics. We don't make up these numbers. We actually use 
hard data from the Bureau of Labor Statistics and apply it to 
the actual exports that we do. That's where the number comes 
from. What GAO asked us to do was to provide greater 
transparency on the methodology, but they did not dispute the 
methodology.
    We have 78 recommendations from the Inspector General. We 
have closed 33 of those. We have sent another 20 that are 
being--in discussion with the Inspector General. We have 16 
that are actually open that are in discussion, working with 
GAO--with the Inspector General, what are the recommendations, 
understanding how we could implement them, whether we need 
systems or people or change in methodology. And we have two 
that are, quote/unquote, ``unresolved'' that we're actually 
having a debate with the Inspector General whether they're 
warranted or not.
    So 2 out of 78 actually have any degree of contention 
whatsoever. We have accepted, otherwise, all the other 
recommendations of the Inspector General and have put them into 
place.
    Mr. Jordan. But 38 have been implemented. Is that the 
number you gave, 38 out of 78?
    Mr. Hochberg. Thirty-three are actually closed.
    Mr. Jordan. Okay.
    Mr. Hochberg. Which means totally closed.
    Mr. Jordan. So they're done.
    Mr. Hochberg. --in process of being implemented. And as I 
said, only two are being discussed.
    Mr. Jordan. And when did you receive these recommendations?
    Mr. Hochberg. They come--they've been over the years. Some 
of them take----
    Mr. Jordan. Over several years?
    Mr. Hochberg. Some of them take technology, some of them 
take IT support to change, so--but we've been working 
diligently. I mean, the Inspector General has said that we have 
fulfilled their requirements. And I have not had an objection 
from the IG saying that we have not been cooperative, haven't 
worked with them, haven't accepted their recommendations.
    Mr. Jordan. Yeah, so you've done 33 of the 78. You've 
completed 33 of the 78. You've received----
    Mr. Hochberg. Thirty-three are closed. The rest we're in 
the process of closing.
    Mr. Jordan. But that's what we look at. We look at getting 
to the finish line and actually getting the job done. Thirty-
three of 78 I think was Mr. Mulvaney's point. That's less than 
half.
    Mr. Hochberg. Less than half have been totally closed, 
and----
    Mr. Jordan. Right.
    Mr. Hochberg. --the others are in the process.
    Mr. Jordan. I understand what you're saying, but I'm just 
saying, to Mr. Mulvaney's point----
    Mr. Hochberg. Mr. Chairman, there will always be items in 
the works. We'll never get to zero.
    Mr. Jordan. I understand that.
    Mr. Hochberg. It is impossible to get to zero.
    Mr. Jordan. I understand that. I understand that. But we 
want to be clear and define these things accurately.
    The gentlelady from--did the gentleman have another point 
to make?
    Mr. Hochberg. The only other point I would make, actually--
--
    Mr. Jordan. Because usually just the Members get to 
filibuster, not the witness, but I'm letting you go.
    Mr. Hochberg. You're a very kind chairman, sir.
    Mr. Jordan. All right.
    Mr. Hochberg. In the last decade, some of the items that 
Ms. Katz was referring to, we have processed over 33,220----
    Mr. Jordan. Let me ask you about this. Let me just do one 
thing, since we've got this extended dialogue with you and Mr. 
Mulvaney. And I'll let Mick jump back in if he--Mr. Mulvaney 
jump back in if he'd like.
    But he raised the issue that half the employees who took 
the survey said they can't trust their leadership. Now, you've 
got a page and a half about ethics and training and all this 
stuff in your written testimony. I read it last night. You make 
a big--you made a big deal of it when you made your opening 
statement. You made a big deal to a number of Members.
    So you can trumpet all that you want, but the fact remains 
half the people who work for you who took the survey said, I'm 
not really confident in sharing information about dishonesty 
and potential problems, I'm not comfortable sharing that.
    Mr. Hochberg. Mr. Chairman, half--half--if you add also 
those who are neutral, said they didn't have a real opinion on 
it, it's 75.
    Mr. Jordan. Well maybe because they're scared, too.
    Mr. Hochberg. No, but it's 75 percent, and the Federal 
Government average is 80 percent. We're below the average. I 
would like to get----
    Mr. Jordan. Well, if you add it that way, yeah, if you mix 
this and that and come up with everything else----
    Mr. Hochberg. Well, no, but let's look--listen, I'm looking 
at the facts----
    Mr. Jordan. --apple pie and butterflies.
    Mr. Hochberg. --I'm looking at the facts, and I'm saying, 
yes, we're below the Federal average. I'd like to get higher. 
But let's put it in----
    Mr. Jordan. But the people who, the people who did the 
survey----
    Mr. Hochberg. Let's put it in context. Let's put it in 
context.
    Mr. Jordan. --a bunch of them said, I don't want to answer. 
And 50 of them--50 percent who did said, you know what, I don't 
have much trust. That's a problem. That is a real problem.
    So maybe this--maybe we wouldn't have all this fraud, these 
investigations, if you could have people who were willing to 
come forward and feel confident that they could give that 
information to the folks that they work for.
    Mr. Hochberg. Well, I go back----
    Mr. Jordan. All I'm saying is that's a concern.
    Mr. Hochberg. I go back to what the Inspector General said 
in his letter to the committee yesterday: There is no--not 
developed any evidence of widespread employee misconduct or 
systematic employee involvement----
    Mr. Jordan. Maybe those same people are afraid to talk to 
him.
    The gentlelady from Wyoming is recognized for----
    Mrs. Lummis. Thank you.
    Mr. Jordan. Excuse me 1 second.
    Does the gentleman from South Carolina have an additional--
--
    Mr. Mulvaney. Just to follow up on Mr. Cummings' inquiries. 
I appreciate the information, Mr. Hochberg, and I obviously 
appreciate the back-and-forth, something we don't get to do on 
the other committee.
    I do want to read the executive summary of just one of the 
things, the GAO summary regarding the jobs. I'm going to read 
verbatim from the very closing of the summary. It's one 
sentence.
    ``Because of a lack of reporting on the assumptions and 
limitations of its methodology and data, congressional and 
public stakeholders may not fully understand what the jobs 
number that Ex-Im reports represents and the extent to which 
Ex-Im's financing may have affected U.S. employment.''
    And there's a couple other things, but I won't go line by 
line.
    I guess my point was very similar to what the chairman's 
was. If you've got a circumstance where 40 percent of--only 40 
percent of the people working at a place are comfortable in 
blowing the whistle and you're relying on those people to bring 
waste, fraud, and abuse to your attention, then it's likely 
that you're missing at least half of the waste, fraud, and 
abuse.
    And that you're right, you did rely on--I think you 
mentioned earlier you relied on people within your organization 
to bring the current four circumstances to your attention, 
which is great. But when you've got a culture where a majority 
of people are afraid to bring that to your attention, it makes 
me worry, as a Member of Congress who has some oversight over 
this particular institution, that you are not catching enough 
of it.
    Mr. Hochberg. Well, it is not a majority that said that. If 
you take those who said they have the confidence and those who 
are neutral, don't either feel one way or another----
    Mr. Mulvaney. Mr. Hochberg, if I take the neutral people 
and put them on the other side, then there's 60--then I get my 
60 percent. I mean, the bottom line is only 42 percent of the 
people said they were comfortable doing that. You could take 
the people in the middle, you're absolutely right, and move 
them either way. That's why you don't count them.
    Mr. Jordan. Great point.
    The gentlelady from Wyoming is recognized for 5 minutes.
    Mrs. Lummis. Thanks, Mr. Chairman.
    And I'd like the staff to put up the Impex timeline, 
because I'm going to concentrate on the Impex issue, Mr. 
Hochberg.
    So let's walk through the Bank's relationship with Impex 
Associates. That's the Florida exporter that is alleged to have 
bribed Mr. Gutierrez.
    Do you know when the Bank first approved a deal with Impex 
Associates? Looks to me like it was 2002.
    Mr. Hochberg. 2002.
    Mrs. Lummis. Okay. And when did the Bank's Office of 
General Counsel refer Impex Associates to the Office of 
Inspector General for investigation of fraud?
    Mr. Hochberg. I--well, first, it was before my time. You 
know, I did not join the Bank until 2009.
    Mrs. Lummis. Okay. Well, it looks to me like it was 
December 2009, from this chart.
    And the basis for the referral was that the alleged buyer 
never existed and that the transaction was suspected to be 
fraudulent, right?
    Mr. Hochberg. You're more familiar with that--as I said, 
this was referred to the Inspector General in--and our general 
counsel in 2009.
    Mrs. Lummis. Okay. And, in fact, reading the details of 
this referral, it says, ``Impex Associates has been the 
exporter on more than 10 Ex-Im Bank-financed insurance and 
guaranteed transactions, and at least 6 of these transactions 
have resulted in claims to date.'' Now, I think that that's up 
on the slide, as well.
    So the Bank was paying out taxpayer money on 60 percent of 
Impex deals, and it didn't suspect anything?
    Mr. Hochberg. Congresswoman, first of all, Ex-Im Bank got 
an Inspector General in 2007. This came--this was referred to 
the Inspector General, that was when the office was 
established, in 2009. And under my tenure and once the 
Inspector General was there, that's when this issue came to a 
head.
    Mrs. Lummis. Okay. So----
    Mr. Hochberg. You have over 6, 7 years beforehand when it 
went undetected by staff, general counsel of the Bank, and so 
forth.
    Mrs. Lummis. That's amazing, that it went undetected. In 
fact, it's kind of stunning. Because Impex's fraud was open and 
it was notorious. There was a lawsuit, 2006 Federal lawsuit, 
Vyasulu v. Diaz, and it had a 69-page complaint laying out in 
precise detail exactly how Impex Associates is a scheme to 
defraud the Export-Import Bank.
    This lawsuit was publicly filed in open court. How could it 
have been missed?
    Mr. Hochberg. Congresswoman, it's before my time at the 
Bank. I was not there until 2009. I can't really opine on what 
happened in 2006, '07, or '08 before I arrived at the Bank.
    Mrs. Lummis. But that doesn't make the sins of Ex-Im in not 
monitoring this stuff forgivable. It only makes you forgivable.
    How did the Bank go on to approve seven more transactions 
for loan guarantees and insurance?
    Mr. Hochberg. I was not at the Bank. I cannot answer that 
question.
    Mrs. Lummis. Now, what have you done, then, to make sure 
this never happens again?
    Mr. Hochberg. Well, I believe we have a--contrary to some 
members of this committee, we have a culture of ethics. We have 
actually ethics training. I've got seven people in our general 
counsel's office and, plus, the general counsel, as well.
    As I mentioned, we have an ethics manual that every new 
employee does. We review that every year. We have offered 
courses--employees this year started; they were 
oversubscribed--where employees can actually help them detect 
fraud on behalf of outside entities so that companies like an 
Impex--that employees are more alert to what should they be 
looking for in those transactions.
    Those are the kinds of things we've put in place.
    Mrs. Lummis. Well, what they should be looking for, at 
least, at a minimum, is open court records that document 
precisely the fraud that was perpetrated on Ex-Im Bank.
    I have additional time I would like to yield to the 
chairman.
    Mr. Jordan. I thank the gentlelady for yielding.
    Mr. Hochberg, did you, did the Bank itself investigate how 
Mr. Gutierrez's name became public?
    Mr. Hochberg. The Inspector----
    Mr. Jordan. Well, let me ask it first this way. How did his 
name get public?
    Mr. Hochberg. I have no idea.
    Mr. Jordan. And, now, did you investigate how it went 
public?
    In our earlier exchange, you told me that counsel told me I 
can't talk about it, can't disclose the names, OIG, the 
Inspector General said, you know--advised us not to do that, at 
least in a letter; he didn't say it to you directly. So you 
made a big deal of this.
    If you care so much about that not becoming public, did you 
investigate how one name did get public?
    Mr. Hochberg. I had a discussion with the Inspector 
General, and they are looking into how this became public.
    Mr. Jordan. No, did you, inside, internally, did--you made 
a big deal, these seven lawyers you've hired, this big pamphlet 
you've held up several--or booklet you've held up several 
times, two and a half pages of your testimony talking about 
ethics, even though half the people are nervous about the folks 
above them and feel like they can't be honest.
    You made a big deal of this, and so it seems to me, if 
something went public that wasn't supposed to go public, you'd 
be all over it, you'd investigate that. And you're telling me 
you didn't investigate it?
    Mr. Hochberg. No, I did--I said I spoke to the Inspector 
General about it and said, how are we getting to the bottom of 
this?
    Mr. Jordan. Did your lawyers, did these seven people in 
ethics, did all this--did they look into it? Not the Inspector 
General; did you guys look into it? It's one thing to have the 
Office of the Inspector General look into it. It's another 
thing if you guys internally look at it. Did you do that?
    Mr. Hochberg. We referred this to the Inspector General 
because it was a----
    Mr. Jordan. You didn't do any of your own internal 
investigation?
    Mr. Hochberg. We referred it to the Inspector General.
    Mr. Jordan. Do you know today, testifying before Congress, 
how Mr. Gutierrez's name became public, how the Wall Street 
Journal got his name and said he's under investigation for 
bribery and fraud? Do you know how that got public?
    Mr. Hochberg. I do not.
    Mr. Jordan. No idea.
    Mr. Hochberg. I do not.
    Mr. Jordan. And does anyone else outside the Inspector 
General's Office, to your knowledge, at the Export-Import Bank 
know how his name became public?
    Mr. Hochberg. At the current time, no.
    Mr. Jordan. All right.
    The gentleman from Georgia is recognized for 5 minutes.
    Mr. Collins. Thank you, Mr. Chairman.
    Mr. Hochberg, I just have, you know, some questions here. 
Let's go over--I think there's a lot of concern, as noted in 
this hearing, about the Bank and some of its dealings and some 
of the things we're reading in the headlines. So let's just 
start with a few things, and we can do that, okay?
    According to the CBO, over the next 10 years, Ex-Im's six 
largest programs will generate $14 billion under the government 
standard accounting framework. However, when CBO applies the 
private-sector accounting framework, the fair value accounting 
method, CBO projects the Bank to lose $2 million.
    I want you to discuss that process. Because, from my 
perspective, this is what a lot of my constituents say, there's 
government accounting, then there's real accounting. And this 
is something that I would like an answer on.
    Mr. Hochberg. Well, thank you, Congressman.
    You know, the government accounting system that was put in 
the FCRA, the Federal Credit Reform Act, in 1990, went into 
effect in 1992, that's the accounting system that the U.S. 
Government runs on. We can--you know, I ran a company for 20 
years. You can't pick and choose your accounting system. That's 
the accounting system that the government uses.
    Fair value accounting is an alternate approach to 
accounting. It is not--it is not force of law, it's not what 
Congress has passed. So we abide by the accounting system 
that's in place.
    The swing you mentioned from if you change accounting 
systems assumes one other gross statement, and that is that 
nothing else changes. Well, things could change. We could 
change our fee structure, we could change the way we operate to 
make sure that we're still self-sustaining.
    Mr. Collins. So----
    Mr. Hochberg. It assumes nothing changes.
    Mr. Collins. Okay. And I appreciate it, but I guess my 
question here is, okay, you go from $14 billion under--yes, 
we're going to--but a $2-million loss. Which is real?
    Mr. Hochberg. Well, under the current----
    Mr. Collins. Are you going----
    Mr. Hochberg. Under our current accounting systems, $14 
billion by GAO--by, yes, GAO is--CBO is the correct number. But 
the fact of the matter is, Congressman, in October of this 
year, unmistakably we sent to Treasury one billion, fifty-seven 
million dollars. Over the last 2 years, we have sent to 
Treasury cash of $2 billion. That's unmistakable. Whether you 
change the accounting system or not, the cash is still there.
    Mr. Collins. Okay.
    Following up on some other issues, Mr. Hochberg, the Wall 
Street Journal article, 2010, ``The Bank changed how it 
disclosed financing deals and no longer discloses all the 
small-business loans it originates.''
    This is something that seems to be a thread today on a lot 
of other issues, not just this hearing but others, that 
transparency and accountability are things that the people are 
clamoring for. We see this in scandals all over the place.
    My question is, what is your rationale for reducing 
transparency and disclosure in this area?
    Mr. Hochberg. Well, Congressman, I'll also refer you to 
this competitiveness report that we issue. We are cited as 
being, by our competitors, being the most transparent export 
credit agency in the entire world. And, frankly, the biggest 
readers of this document each week, each year, is not just 
Members of Congress, it's the 59 other export credit agencies, 
because we have greater transparency on our loans through the 
Federal Register, our environmental record, and so forth.
    Mr. Collins. That's wonderful. But then, if that be true, 
that's great, it's a nice little book, but why not disclose it 
all? Why did we change the method? Why do we not disclose 
them--disclose all the small-business loans it originates?
    Mr. Hochberg. I am unfamiliar with----
    Mr. Collins. This is a 2010 Wall Street Journal article 
that discussed this.
    Mr. Hochberg. Well, I'd be happy to get back to you on 
that. I'm not familiar with this precise----
    Mr. Collins. Okay. And if you would, then I'll submit the 
questions into the record. I'd like a written response on it.
    Mr. Hochberg. I'd be happy to do that.
    Mr. Collins. Because, again, you can bring the committee--
and I think this is the part we're getting to, these questions 
that come up. And I would, like you, I would point to something 
that says we're doing it fine, but the reality is there's 
articles that say that we're not doing it. So, as we look at 
it, you know, these are things that we need.
    Also July of 2010, the Bank's board of directors issued a 
resolution on individual delegated authority authorizing 
certain individuals and Ex-Im Bank officers to approve loans, 
guarantees, and insurance up to $10 million.
    What steps have you taken to address the Inspector 
General's criticism that individual delegated authority allows 
for application of inconsistent criteria and may insufficiently 
mitigate the risk of default or fraud?
    Mr. Hochberg. In an effort to both streamline the Bank and 
also provide accountability, we have--senior officers can 
approve up to $10 million. We have an audit of that on a 
regular basis that we ensure that those who have individual 
delegated authority are complying with the full credit 
standards of the Bank.
    We have uniform credit standards across the Bank. We're 
working to increase the harmonization between programs, but we 
actually have a harmonized credit standard at the Bank. We have 
a division of the Bank, a senior vice president, who looks 
truly at credit policy to make sure that we apply it uniformly 
across every area of the Bank. We apply the same credit 
standards for countries regardless of what area of the Bank 
it's in.
    So I would say that that's not correct.
    Mr. Collins. So you would disagree with the Inspector 
General?
    Mr. Hochberg. Today----
    Mr. Collins. After inputting the steps that you just talked 
about.
    Mr. Hochberg. Yes.
    Mr. Collins. Okay.
    Mr. Hochberg. In other words, each time the Inspector 
General has made some suggestions, we have worked to either 
incorporate them already or are working to incorporate them.
    Mr. Collins. Real quickly, and I know, Chairman, my time, 
but just indulge us 1 second.
    Going back to this other question where you say you'll get 
back to me on no longer disclosing, one of the things the 
Office of Inspector General said, there are 40 outstanding 
investigations involving fraud against the Bank. I just have a 
question, because we're not disclosing small-business loans. Do 
most of these cases involve small-business loans?
    Mr. Hochberg. Generally speaking, yes. I can give you a 
better precise answer, but, generally speaking, yes.
    Mr. Collins. So the ones that we're not disclosing are the 
ones that right now we're investigating for fraud against the 
Bank, for the most part.
    Mr. Hochberg. No, I don't think that's the case, sir. I'm 
sorry, your question is, we disclosed--last year, I'll give you 
an example, we did 3,413 small-business loans.
    Mr. Collins. Wait, wait, wait.
    Mr. Hochberg. Each one of them is----
    Mr. Collins. Let's go back. That's not my question. 
You're----
    Mr. Hochberg. I'm not sure I understand your question.
    Mr. Collins. Well, then, let's go back. According to the 
Office of Inspector General, there are 40 outstanding 
investigations involving fraud against the Bank. Okay? Now, 
will you agree with that statement or disagree with that 
statement?
    Mr. Hochberg. I accept what the Inspector General----
    Mr. Collins. Okay. Do most of these cases involve small-
business loans? This is not--I don't want to know 3,000 of it--
I want to know about these 40, and do they involve mainly 
small-business loans?
    Mr. Hochberg. I don't want to mislead you. Let me get you a 
precise answer after I get your question in writing, and I'll 
look it up.
    Mr. Collins. Okay. So you don't know.
    Mr. Hochberg. I do not know precisely.
    Mr. Collins. Okay. And these are outstanding 
investigations, and you don't know?
    Mr. Hochberg. I don't know the----
    Mr. Collins. Okay.
    Mr. Hochberg. --nature of every single outstanding 
investigation.
    Mr. Collins. Okay.
    Again, I think there's a lot of issues here, there's a lot 
of concern on the Hill concerning these actions, the things 
that we see. Transparency is needed, transparency in these 
questions.
    And, again, I think, as we said before, looking at these 
ideas and having the transparency, no matter what others may 
say, it's coming down and saying, okay, what is the truth and 
what we're seeing between the truth and reality. These have got 
to be answered, and I know the people in my district want to 
know this.
    And this is important for this committee to continue to 
look at, because this affects a lot of businesses, it affects a 
lot of priorities in this country. And, frankly, it's not 
something that the government needs to be dabbling in, 
especially if there's other ways to do it.
    So, Mr. Chairman, I do yield back.
    Mr. Jordan. I thank the gentleman.
    Mr. Hochberg, real quickly, before yielding to Mr.--or 
recognizing Mr. Connolly, do you know if the bribery 
allegations against Mr. Gutierrez and the three others have--
has there been any referral to the FBI and the Justice 
Department, do you know?
    Mr. Hochberg. To my knowledge, the Inspector General is 
working with the Justice Department on these.
    Mr. Jordan. So the Justice Department is involved today 
as--your understanding, the Justice Department is involved in 
this investigation.
    Mr. Hochberg. That's correct.
    Mr. Jordan. And including the FBI.
    Mr. Hochberg. I don't know that.
    Mr. Jordan. Have you had any--have you personally had any 
conversation with the Justice Department and the FBI regarding 
the investigation into the bribery allegations against Mr. 
Gutierrez and the three others?
    Mr. Hochberg. No, I do not.
    Mr. Jordan. Okay. I thank the gentleman.
    The gentleman from Virginia is recognized.
    Mr. Connolly. Thank you, Mr. Chairman.
    Welcome, Mr. Hochberg, to our committee. I'm sure it's a 
special moment for you.
    Mr. Hochberg, what did you do before you became the head of 
the Ex-Im Bank?
    Mr. Hochberg. I spent 20 years in business, a family 
business, small business for 20 years. Then I actually also--
after that, I served in the Clinton administration. And I was 
also a dean of a school of management and urban policy in New 
York.
    Mr. Connolly. And with that private-sector background, what 
made you decide you wanted to head up the Ex-Im Bank in this 
administration?
    Mr. Hochberg. You know, my family--my mother actually came 
here from Germany and started a business, and I was--I grew up 
in that. I grew up at the kitchen table hearing about it. I 
enjoyed going in--going to work together. I got my master's 
degree; I was the first college graduate to go work at the 
company. Worked for 20 years building a business called Lillian 
Vernon, a catalog company that became a public company. I took 
it public and spent 20 spectacular years there.
    And I like public service. I like public service. Perhaps 
that's coming from immigrant parents, where you think about 
trying to make this country a better country. And so this was a 
way I could participate in that, both at the Small Business 
Administration, as a dean of a graduate school, and then here 
at the Export-Import Bank.
    Mr. Connolly. Well, I hope you understand that there are a 
number of us who very much appreciate that and are pleased 
you're where you are and that you've made that kind of decision 
about public service. Thank you for your service to your 
country.
    Your testimony explained that on the advice of general 
counsel and the Bank's IG, who's leading the ongoing 
investigations, you will not disclose the details or 
information about the individuals involved in the alleged 
incidents of fraud or corruption. Is that correct?
    Mr. Hochberg. That's correct.
    Mr. Connolly. Do you think it's fair that because there are 
alleged incidents of such fraud or corruption that the entire 
work of the Ex-Im Bank should be discredited and, indeed, we 
should allow the expiration of the authorization of the Ex-Im 
Bank to exist at all?
    Mr. Hochberg. No.
    Mr. Connolly. Why?
    Mr. Hochberg. We have four individuals who are--one--have 
had alleged wrongdoing. We don't know that they've committed a 
wrongdoing. They have not been indicted. They have not gone to 
court. So I think that we--that is--you know, those are four 
isolated cases. We have not had any in--I have been at the Bank 
since 2009. It is the first time. Nothing in 2009, '10, '11, 
'12, and just came in at the end of '13, this year. So we've 
had a number of years that have been no allegations whatsoever 
and no indictments.
    Mr. Connolly. Because I think some who are maybe committed 
to an ideological agenda to allowing the Ex-Im Bank to expire 
want the public to have an impression that somehow it's rampant 
with corruption and fraud. These are isolated incidents.
    Were any of them referred by you or your management, 
actually, to the IG?
    Mr. Hochberg. They were referred to by other employees.
    Mr. Connolly. Okay. So the system worked.
    Mr. Hochberg. The system worked. People looked and said, 
there's something wrong with this transaction or something 
doesn't seem appropriate here, and they brought it to the 
attention of the ethics officer and/or the IG.
    Mr. Connolly. And, certainly, if you look at it in a 
context of a 5- or 6-year period, obviously it does not 
characterize in any way the operations of the Ex-Im Bank.
    Mr. Hochberg. I would agree with that.
    Mr. Connolly. Unfortunately, human nature being what it is, 
sooner or later there's always a bad apple that can appear, and 
the question is, how do we deal with it? And how would you 
characterize the response of the agency when brought to your 
attention?
    Mr. Hochberg. I am proud of the agency and our ethics 
department, which acted immediately. The employees, as evidence 
came through, were either put on administrative leave, and then 
ultimately three of them, as I said, have been separated from 
the Bank.
    Mr. Connolly. Why do you think--okay. Thank you.
    Why do you think we need an Ex-Im Bank?
    Mr. Hochberg. We need an Ex-Im Bank because--first of all, 
we've been around for 80 years. It's the same reason we started 
with: We need to create more jobs in this country. This is 
about--and one of the sources of jobs is going to be exports. 
One of the impediments to exporting is both risk and perceived 
risk, as well as foreign competition. So we exist when the 
private sector can't step up to fill in the gap.
    That's one reason during the financial crisis we did almost 
between two and three times the volume of loans, because there 
was a great need. As banks have entered the market again, our 
volumes are once again trimming back because our need is not as 
great. But my counterpart in Britain says, just because you've 
not had a fire in 5 years does not mean you sell the firetruck.
    Mr. Connolly. Focus just a little bit on the foreign 
competition. So do our foreign competitors have an analog to 
the Ex-Im Bank?
    Mr. Hochberg. There are at least 59 other export credit----
    Mr. Connolly. I'm sorry, how many?
    Mr. Hochberg. There are at least 59 other export credit 
agencies around the world whose purpose, frankly, is even 
more--much more aggressive than anything we have in the United 
States.
    Mr. Connolly. Who, for example, sticks out in your mind in 
that category?
    Mr. Hochberg. China is the largest, without question. China 
is very large. Brazil has a very active program, frankly, but 
so does Japan, so does Korea, so does Germany. Those are some 
of our most formidable competitors.
    Mr. Connolly. When we look at, for example, the airline 
industry or the aircraft industry, what's Boeing, for example, 
up against?
    Mr. Hochberg. Boeing is up against Airbus, which is 
supported by the export credit agencies of Germany, Britain, 
and France. They have three export credit agencies that support 
the sale of Airbus planes.
    I was just in China. China is building a large commercial 
aircraft to compete with both Boeing and Airbus. Russia has an 
aircraft that also competes.
    So the competitive intensity around aircraft, which is our 
largest--aerospace is our largest single export category--is 
intense and getting more intense.
    Mr. Connolly. Would you say that even with the help of Ex-
Im Bank it's not a level playing field, in terms of what we're 
up against with Airbus?
    Mr. Hochberg. Oh, it frequently is not a level playing 
field.
    Mr. Connolly. Yeah.
    Mr. Hochberg. I mean----
    Mr. Connolly. I would just end by saying, you know, I 
understand, I guess, from a pure ideological point of view, 
those who argue, well, ceteris paribus, all other things being 
equal, we shouldn't need this kind of instrument, the market 
should work. But your testimony about 59 export subsidies--or, 
entities that subsidize our foreign competition tells us we're 
a long way away from a perfect world or a level playing field. 
And it would be naive and, indeed, self-destructive, it seems 
to me, for the United States not to reauthorize the Ex-Im Bank.
    Thank you, Mr. Chairman, for your indulgence. I appreciate 
it.
    Mr. Jordan. I thank the gentleman.
    The gentleman from Florida is recognized.
    Mr. DeSantis. Mr. Hochberg, you stressed your commitment to 
ethics, and I do think that that's sincere on your part, and I 
appreciate that.
    Do you believe, just understanding human nature, that there 
is a greater risk of bribery and graft with Ex-Im just simply 
because there are lucrative deals at issue?
    Mr. Hochberg. Greater than what?
    Mr. DeSantis. Greater than, say, the Department of 
Education.
    Mr. Hochberg. I'm not in a position to really evaluate 
degrees of enticement to take briberies from one agency to 
another.
    Mr. DeSantis. Okay. Very well.
    In terms of the accounting, I know they are back and forth. 
The way that the Bank does the accounting, there's a windfall 
for the taxpayer. The way the CBO did it under fair value, it 
was a loss of a couple billion over 10 years.
    My question is just simply, you were in the private sector. 
That's pretty standard convention to use the fair value 
accounting. What is the reason that fair value accounting is 
not used at Ex-Im?
    Mr. Hochberg. The Federal Government, Congress has passed a 
law that we use FCRA, Federal Credit Reform Act, that guise, 
for government accounting. We don't pick and choose our 
accounting system. You, as Members of Congress, vote to approve 
whatever the accounting system is, and we abide by that law.
    Mr. DeSantis. So you're not opposed to fair value if 
Congress wants to go that way? I was under the impression----
    Mr. Hochberg. Well, I haven't made an opinion of----
    Mr. DeSantis. Okay.
    Mr. Hochberg. I haven't studied it to give you an opinion 
on that. I'm simply telling you I follow the law.
    Mr. DeSantis. Okay.
    Mr. Hochberg. The law says we follow----
    Mr. DeSantis. No, I understand that, but I thought you had 
expressed some resistance to it. So you will not endorse using 
fair value accounting with the Bank at this time?
    Mr. Hochberg. I will endorse whatever the law says I should 
do.
    Mr. DeSantis. Do you believe that--because there is an 
issue about the Bank supporting jobs, using the term 
``support''; there was back-and-forth. Do you believe that the 
Bank actually creates jobs net? In other words, if there wasn't 
the Bank, we would have fewer jobs here in the U.S. economy?
    Mr. Hochberg. Without question.
    Let me just talk about supporting jobs for a minute. I was 
recently in Chicago, a company called Howe Corporation. It 
makes refrigeration units they use on fishing boats and so 
forth. Mary Howe, fourth generation, is now exporting up to 40 
percent a year. She said to me, because of you--it's in the 
Chicago Tribune--because of the Ex-Im Bank, I did not have to 
lay off a single person, I kept my 40 people working.
    So, in that case, we supported those jobs. We did not 
necessarily add jobs, but were we not there, Mary said very 
clearly, I would have had to lay people off; I did not want to 
lay people off, so you supported my being able to keep a full 
workforce.
    In other places, where, as Congresswoman Duckworth said, 
there's a new sale--in Mary's case, we replaced sales lost 
because of the financial crisis. Where there's a new sale, it 
often means adding another shift and hiring employees.
    So it depends. We use the word ``support'' to be 
conservative as opposed to being----
    Mr. DeSantis. No, I understand that. And I think you can 
point to a transaction, and you may have there, where maybe 
those jobs would not have been there without a certain finance 
package.
    But as I read the reports, there are examples in which Ex-
Im loans benefit foreign competitors of our domestic 
manufacturers. For example, there was an energy refinery in 
Turkey, and there was concern raised here domestically from 
Texas refinery manufacturers basically saying, look, you're 
directing government power to do this deal, but then that has 
ended up disadvantaging us.
    And so, when you're saying it creates more jobs, are you 
also accounting for maybe the back end of some of those 
transactions and how that could affect domestic competitors?
    Mr. Hochberg. Congress has put in our charter, and we 
follow it, and we updated those regulations, it's referred to 
as ``economic impact.'' On every transaction, we review, does 
the economic benefit to the U.S. economy outweigh any potential 
harm?
    So, in the particular transaction you're referring to, we 
looked at, what is the economic benefit to the U.S. economy by 
making these exports, what is the potential harm to the U.S. 
economy, to ensure that there's a positive benefit to the U.S. 
economy.
    And then the independent board, which is made up--it's a 
bipartisan board--still votes on that transaction.
    Mr. DeSantis. There was back-and-forth about the number of 
dollars that go to small businesses. I think it was 19 percent 
last year, and I think you've said now it's up to 22 percent--
--
    Mr. Hochberg. We're stronger right now.
    Mr. DeSantis. --so far this year. As I understand it, the 
definition of ``small business,'' that includes firms with 
employees up to, what, 1,500?
    Mr. Hochberg. Well, the SBA makes those determinations of 
what actually is a small business. It's not our determination. 
We----
    Mr. DeSantis. But is that--no, I understand that. But is 
that--when this stuff is being put out, it would include the 
firms up to 1,500? Is that the number that's used?
    Mr. Hochberg. Generally, in manufacturing, the rough number 
is 500. But, again, the SBA, they determine--I was at the SBA. 
They look at every industry and say, but what's small by that 
industry's category?
    Mr. DeSantis. So, no, I understand that, but I'm just 
trying to figure out, the upper level of what would be 
considered small would be 1,500, is that--I've just read 
reports. I'm just seeing if that's the case.
    Mr. Hochberg. I haven't seen a number that high.
    Mr. DeSantis. Okay. Well, look, the 500, if we can get that 
used for Obamacare, the initial thing, that would give a lot of 
relief to a lot of small businesses in my district. So I'm not 
above counting that as 500.
    One final question. How does the Bank view its role in 
terms of the national security component that could affect 
economic transactions between certain States? And some of these 
deals are with essentially State-directed enterprises.
    It was reported today in an article by a columnist in The 
Washington Post that two of Hamas's supporters are Qatar and 
Turkey. Last fiscal year, the Bank authorized $775 million to 
Qatar, $4.3 billion for business in Turkey. Of course, Turkey's 
Prime Minister has come out and said that Israel is worse than 
Hitler, and he has basically taken a very anti-Western, pro-
Islamist stance.
    So how can we, just as people in Congress, when we're 
looking and we have duties with national security, how can we 
be sure that the deals that are being done are also consistent 
with our national security goals and strategies?
    Mr. Hochberg. There's something referred to as the National 
Advisory Committee, which reviews all transactions over $30 
million that the board votes upon. So they are shared with the 
State Department, Treasury, Commerce, and other relevant 
agencies, who render an opinion whether there's anything wrong 
with the entities that are part of the transaction.
    So, in your case with Qatar or Turkey, as an example, they 
were all green-lighted by the various agencies that are part of 
the National Advisory Council.
    Mr. DeSantis. Well, no, and I appreciate that. And, in 
fact, I think looking at some of the conflicts we see, I think 
our administration has been erring by siding with Qatar and 
Turkey over some of the stronger allies that we have in the 
region.
    But I appreciate the testimony, and I yield back.
    Mr. Jordan. The gentleman from Pennsylvania is recognized.
    Mr. Cartwright. Thank you, Mr. Chairman.
    And, Mr. Hochberg, I want to associate myself with the 
remarks of Mr. Connolly of Virginia. And I thank you not only 
for appearing here today, but I recognize your extensive 
credentials in the business world, your capabilities. You have 
the ability to go out and make an exponential amount of money, 
more than what the Federal Government is paying you for your 
public service, and I thank you for that.
    I also want to note that you came to the Ex-Im Bank in 
2009. 2009 isn't when the Ex-Im Bank started. It started in 
1934 by Executive order of President Franklin Delano Roosevelt.
    And for everyone's information, Congress did not sue 
President Roosevelt for that Executive order as going beyond 
the bounds of the Constitution. In fact, President Ronald 
Reagan supported expanding it, as was noted in the New York 
Times article, op-ed, published yesterday by former President 
Reagan's Secretary of Labor, William Brock III, who was also a 
Republican Senator from Tennessee. His op-ed is called ``Don't 
Kill the Export-Import Bank.'' And he makes the particular 
point that President Reagan saw the value in the Bank in 
assisting American businesses to compete abroad and supported 
expanding it.
    I also want to note that the Export-Import Bank, in your 
testimony, Mr. Hochberg, has a default rate of 0.194 percent, 
which is less than one-fifth of 1 percent. And I certainly 
invite Mr. Mulvaney, my colleague, to challenge that if he 
thinks that that is incorrect. But that's a very small default 
rate, indeed.
    But I want to direct my--and we don't mean to ignore you, 
Ms. Katz, but you're here from The Heritage Foundation. Am I 
correct in that?
    Ms. Katz. That's correct.
    Mr. Cartwright. The opinions you express are not simply 
your own, they are also those of The Heritage Foundation, 
correct?
    Ms. Katz. No, that's not correct. They reflect my own.
    Mr. Cartwright. They're your own opinions but not those of 
The Heritage Foundation?
    Ms. Katz. Correct.
    Mr. Cartwright. Okay. Are you paid by The Heritage 
Foundation?
    Ms. Katz. Yes.
    Mr. Cartwright. Do they know you're here today instead of 
at work?
    Ms. Katz. I consider this work.
    Mr. Cartwright. Okay.
    Mr. Jordan. Dealing with us is----
    Mr. Cartwright. Here's a question: Is The Heritage 
Foundation in favor of abolishing the Export-Import Bank?
    Ms. Katz. I'm in favor of abolishing the Export-Import 
Bank.
    Mr. Cartwright. Okay. So--well, so you don't know if The 
Heritage Foundation----
    Ms. Katz. Well, I----
    Mr. Cartwright. --shares that opinion?
    Ms. Katz. Well, The Heritage Foundation is made up of, you 
know, some, I don't know how many people, 2- to 300 people, and 
there's a variety of opinion in Heritage about all sorts of 
things, but I'm here to discuss my research and my opinions, 
and not those of Heritage in general.
    Mr. Cartwright. All right. Can you tell us what percentage 
of the supporters of The Heritage Foundation are exporting 
companies?
    Ms. Katz. I have no idea.
    Mr. Cartwright. Can you tell us what percentage of the 
supporters of The Heritage Foundation are companies assisted by 
the Ex-Im Bank in exporting?
    Ms. Katz. No, because I really don't pay any attention to 
who--you know, who funds Heritage. I do know, though, that the 
largest proportion of funders are individuals.
    Mr. Cartwright. Can you tell us what percentage of Heritage 
Foundation supporters of big companies or people associated 
with big companies, that don't like competition from small U.S. 
exporters, assisted by the Ex-Im Bank?
    Ms. Katz. I have no idea, but I do know that 75 percent of 
the--the benefits of Ex-Im financing go to about ten very large 
corporations, and only about half of a percent of small 
businesses in the U.S. Receive assistance from Ex-Im.
    Mr. Cartwright. Do you--I want to jump to a point that my 
colleague from Pennsylvania, Mr. Meehan, was driving home, and 
he's a former Federal prosecutor. Do you have any information 
that U.S. attorneys are not good at prosecuting cases of fraud 
when they're perpetrated against the Ex-Im Bank?
    Ms. Katz. I have no information about that.
    Mr. Cartwright. Are you saying that U.S. attorneys don't 
have the full range of prosecutorial tools available to them 
when handling cases of fraud perpetrated on the Export-Import 
Bank?
    Ms. Katz. Well, they certainly have had dozens of cases to 
prosecute, which they have.
    Mr. Cartwright. But you're not saying they don't have the 
full range of tools, are you?
    Ms. Katz. I don't know what their--their arsenal is, sir.
    Mr. Cartwright. Do you have any information that the FBI 
doesn't have the full range of investigative tools when 
handling cases of fraud perpetrated on the Export-Import Bank?
    Ms. Katz. I don't know what the FBI's resources are with 
respect to the Export-Import Bank, although I do know that, you 
know, there have been, you know, considerable number of cases 
of fraud at the bank.
    Mr. Cartwright. So every time there's a case of fraud 
involving the Export-Import Bank, a case of fraud against--
perpetrated against the Export-Import Bank, every time there's 
such a case, the U.S. Government has at its disposal the full 
range of investigative and prosecutorial tools that it can 
bring to bear on any prosecution that brings in this Nation. Am 
I correct in that?
    Ms. Katz. You're--I assume you're correct, but my 
preference from a policy standpoint would be to be able to 
prevent fraud cases rather than building up, you know, ever 
larger resources for prosecutors to--after the fact. And what 
we do know is that Ex-Im is not managed with the intent of 
maximizing protection against fraud.
    Mr. Cartwright. Well, I happen to agree with Mr. Meehan of 
Pennsylvania that to do away with fraud entirely, you have to 
change human nature, not abolish the Export-Import Bank.
    And I yield back, Mr. Chairman.
    Mr. Jordan. I thank the gentleman.
    No one's alleging that the Department of Justice can't do 
fraud investigation of the Export-Import Bank, although I have 
questioned the Department of Justice investigation into other 
issues that have been in front of this committee, and I think, 
you know, 26 Democrats agreed with every single Republican, 
saying we needed a special prosecutor in that situation. So no 
one's alleging that here.
    What we are saying is there's nothing in the law that 
prevents Mr. Hochberg from telling us what he knows, and he 
won't do that. He won't tell us the three other individuals, he 
won't tell us anything about how Mr. Gutierrez' name became 
public, he even won't tell us if he even did--if they've done 
an investigation, it sounds like they haven't, as to how that--
if it's so important that we not jeopardize and disclose who 
these people are, you would have think--you would have thought 
that they would have done an internal investigation to figure 
out how Mr. Gutierrez' name became public.
    So that's all we're saying, is why not--frankly, Mr. 
Hochberg, we've had this before. We've had witnesses sit here 
and tell us, we can't give you information that you're asking 
for, because there's an ongoing investigation, and then we do 
subpoenas and we get the information. In fact, the Inspector 
General told us, we asked him for certain documents relative to 
today's hearing, and he said, go ask Mr. Hochberg. Get them 
from him. So obviously by--when he tells us that, you could 
provide them, you just choose not to provide them.
    The gentleman from South Carolina is recognized for 5 
minutes.
    Mr. Mulvaney. Thank you, Mr. Chairman. I've just got some 
bits and pieces to fill in.
    Jobs, Mr. Hochberg. Mr. DeSantis before he left asked you a 
question about whether or not you count potential job losses 
when you provide your information to Congress about how many 
jobs you support. You don't--you don't count that, do you? For 
example, Delta claims they lost 7,500 jobs via the sale of--
Export-Import Bank support to a purchase of Boeing jets by Air 
India. You don't count those losses when you report those jobs 
to Congress, do you?
    Mr. Hochberg. First of all, Delta's never validated where 
they got those numbers from. I have no----
    Mr. Mulvaney. But I think you testify--I'm not trying to 
bait you, but I think you testified in the previous hearing 
that I was in that you report a gross number.
    Mr. Hochberg. We report the gross numbers of jobs that are 
supported by Ex-Im financing, but in candor, Congressman 
Mulvaney, in my opinion, they actually understate the jobs, 
they do not overstate them.
    Mr. Mulvaney. Fair enough. Mr. Cartwright raised a good 
point about default rates, and I meant to talk about that 
before, the default rate of .0, I think--0.195 is your default 
rate. Now, back as recently as the late 1980s and early 1990s, 
the default rate was 40 percent. You all changed the way you 
count defaults, didn't you? Or Congress changed it for you?
    Mr. Hochberg. We calculate our default rates according to 
the way Congress has asked us to do so. And I have the results 
in front of me for the last 6 years----
    Mr. Mulvaney. Is it the same way that----
    Mr. Hochberg. --and most financial----
    Mr. Mulvaney. --private financial institutions report 
defaults?
    Mr. Hochberg. To my knowledge, it is the same, and in fact, 
I mentioned in my oral testimony that our default--the 
commercial bank and industrial bank default rates as calculated 
by the Fed, the average is 3 to 4 times higher than ours.
    Mr. Mulvaney. No. I understand that, but you don't count 
defaults the same way as a commercial bank does. A default to 
them is not the same as a default to you.
    Mr. Hochberg. We count----
    Mr. Mulvaney. It's not apples to apples, to Mr. 
Cartwright's point, though.
    Mr. Hochberg. No. We calculate defaults to the way the 
Congress has asked us to report the default rates to Congress.
    Mr. Mulvaney. And back in the 1980s and 1990s, when the 
definition was different, that was as high as 40 percent, you 
still have----
    Mr. Hochberg. I don't know whether it was the same 
methodology.
    Mr. Mulvaney. You still debt on your books at the Export-
Import Bank from pre-Castro Cuba, don't you? Do you think 
you're going to collect that debt?
    Mr. Hochberg. We--I don't--I can't answer that question, 
because I don't know the answer to it.
    Mr. Mulvaney. If it were on there, do you think that you 
would be able----
    Mr. Hochberg. It's--it's a hypothetical question.
    Mr. Mulvaney. But if it is on there, then I get to ask the 
question next time, right, because it's on there. You all have 
debt on the books from pre-Castro Cuba, you have debt on the 
books from, I think, 1970s China when Mao was there. But 
anyway, my point of this--to Mr. Cartwright is this, that do 
not take--I encourage my colleagues not to take it as an 
apples-to-apples comparison. The .195 percent is not the same, 
not calculated the same way as it is in, say, Bank of America 
or PNC or something like that.
    The IG had two things to say, and I'm just going to ask you 
if you agree or disagree with these statements. The IG gave 
testimony to the Financial Services about 4 or 5 weeks ago. And 
Mr. Gratacos said that the bank management's consistently 
failed to establish internal controls over business operations, 
and noted that there were ``clear guidance to staff, and 
establishing clear roles and authorities have not been 
prevalent at the Ex-Im Bank.''
    Do you agree or disagree with that statement?
    Mr. Hochberg. I disagree.
    Mr. Mulvaney. And then he went on to say that, and I'm 
reading now from Ms. Katz's testimony until I get to the 
quotations that, such operational shortcomings worsening of the 
bank, et cetera, et cetera, and then as noted by the Inspector 
General, ``this rapid growth in Ex-Im Bank's total portfolio 
exposure raises concerns as to Ex-Im's ability to manage and 
monitor this significant portfolio growth.''
    Do agree or disagree with that?
    Mr. Hochberg. I disagree with that.
    Mr. Mulvaney. Fair enough. And then lastly, Mr. Cartwright, 
or I think it may have been Mr. Connolly mentioned Ronald 
Reagan. My experience in my brief period here is that I don't 
use Ronald Reagan quotations, I sort of treat them like Bible 
quotations in that you can usually find something to take 
either side of a particular story, but in order to rehabilitate 
my favorite President during my lifetime, in 1981 he suggested 
the bank needed to be reduced by at least a third, and in 1985 
he asked ``Is it fair to ask taxpayers to help pay billions for 
export subsidies to a handful of America's biggest 
corporations? We also save billions by eliminating taxpayer 
subsidies to some of America's biggest corporations through 
Export-Import Bank loans.''
    So it seems to me that the debate has been going on for a 
long time. The issues are still there. I just was hoping that 
maybe this might be the year we could fix some of them.
    With that, I'll yield back. Thank you, Mr. Chairman.
    Mr. Jordan. I thank the gentleman for his participation 
today. Let me just go where Mr. Mulvaney was, Mr. Hochberg, and 
I don't--I don't know. I mean, you normally try to ask 
questions you know the answer to, but I don't know this one. 
The--he was--Mr. Mulvaney was talking about the Delta and the 
gross number of jobs that you report. The example you gave with 
the lady in Chicago, I think is in the refrigeration business 
and she has 40 employees, is that--when you report to Congress 
jobs that Ex-Im Bank financing supports, would those 40 jobs be 
in that number?
    Mr. Hochberg. Only the jobs--only what would be allocated 
to the financings we've done. We don't finance 100 percent of 
her business, so I would not count 40 jobs.
    Mr. Jordan. But--so--but you would count some of them?
    Mr. Hochberg. We count those that are allocated to 
exporting.
    Mr. Jordan. And how do you determine that?
    Mr. Hochberg. We use the Bureau of Labor statistics, we 
look at the dollar volume, they have tables we're able to 
access that says looking at the full supply chain of different 
categories of industrial products, we were able to calculate 
how many jobs are created in the supply chain.
    Mr. Jordan. In that example, do you know how many were the 
supported job that she talked about, how many were used in your 
calculation that you gave Congress?
    Mr. Hochberg. Well----
    Mr. Jordan. Was it three, was it seven, was it 39?
    Mr. Hochberg. Mary said to me she's got about 40 employees, 
and depending on the year, 20 to 40 percent of her sales were 
exports. So it depends----
    Mr. Jordan. You took 30 percent of that number and gave 
us----
    Mr. Hochberg. No. Each year we would report based on what 
actually we did. We don't take averages. We say what did we 
actually do working--if we did zero that year, we'd count zero.
    Mr. Jordan. Okay. Okay. Just, I didn't--I didn't know how 
you do it.
    Ms. Katz, there's--are you familiar with this--the loan, 
the ExxonMobil liquid natural gas----
    Ms. Katz. Yeah. The New Guinea, the Papua New Guinea?
    Mr. Jordan. The Papua New Guinea, yes.
    Ms. Katz. Yes. A bit.
    Mr. Jordan. All right. And it's been reported that the 
Inspector General released a report detailing comprehensive 
inspection of this transaction, and he specifically said the 
fault of the bank for taking insufficient steps to protect the 
bank from fraud, and we've talked about a lot today, and for, 
``being unable to properly account for $500 million in local 
costs.'' Are you familiar with that?
    Ms. Katz. Yes.
    Mr. Jordan. And so is it accurate to say we don't know what 
happened to $500 million?
    Ms. Katz. Well, there were--they were claimed to be local 
expenses, but they don't have----
    Mr. Jordan. Any receipts? Any details about those local 
expenses? So we have no idea.
    Ms. Katz. They can't verify, they can't verify them.
    Mr. Jordan. And, Mr. Hochberg, I assume that's a concern to 
you and the folks at the bank?
    Mr. Hochberg. Well, I just disagree with the assertion.
    Mr. Jordan. All right.
    Mr. Hochberg. So let me just--let's discuss what this 
project is. If I can--can I take 1 minute to--Congressman 
Mulvaney, when we have a debt to Cuba, it is written to zero. 
We don't throw it away, because we--we may write it down to--it 
has zero value on the books, it's been totally written off; on 
the other hand, we don't take debts like that and remove them 
from our books, because, as the case with Argentina, other 
countries, at some point we expect to be repaid, but in terms 
of the value, it's zero.
    Mr. Mulvaney. Do you count it as a default?
    Mr. Hochberg. It's already been written off. Yes, it's then 
a default number.
    Mr. Mulvaney. It's been counted as a default?
    Mr. Hochberg. Yes. Yes. It's then a default number.
    Mr. Mulvaney. Thank you very much.
    Mr. Hochberg. Back to your question, Mr. Chairman. On the 
project of Papua New Guinea, this was a project, a large LNG 
project in Papua New Guinea. The U.S. Export-Import Bank 
provided $3 billion so that more jobs would be supported here 
in the United States. Part of our support, we do a project of 
that nature, as you can understand, some costs are incurred 
locally, they're not all--so as--standard practice with the 
OECD, Organization of Economic Cooperation and Development, we 
can do up through 30 percent of local costs to make sure that 
that sale gets done. About $576 million was incurred in local 
costs. Exxon Mobil is the project sponsor. They have certified 
under criminal penalty that those costs were true and incurred 
and validated. And the Inspector General has said, quote-
unquote, that that transaction was properly structured and 
documented and complied with all laws of Know Your Customer, 
and they had no evidence whatsoever for improper local costs 
submitted. So that is--I would disagree with Ms. Katz.
    Mr. Jordan. All right. On the--with the three other 
individuals identified in The Wall Street Journal article who--
for alleged fraud and potential bribes, were their--are they 
being investigated in relation to the same matter that Mr. 
Gutierrez is being investigated for? Is it all related to Impex 
or are the other three on some different issue or transaction?
    Mr. Hochberg. There are four individuals and there are 
three separate cases.
    Mr. Jordan. So--and you--I assume you're going to--when I 
ask you what those other cases involving what companies, you're 
going to say, I can't tell you.
    Mr. Hochberg. The Inspector General is working through 
these cases. They've really--they would like the opportunity 
and not to have anything more compromised then they believe has 
already been compromised by the----
    Mr. Jordan. But I keep coming back to this, Mr. Hochberg. 
There is nothing in the law that prevents you from, under oath, 
in front of a congressional committee doing a legitimate 
congressional investigation at an appropriate time when we're 
looking at the Ex-Im Bank reauthorization legislation, there is 
nothing in the law that prevents you from disclosing the 
information we ask about.
    Mr. Hochberg. These are alleged and they're under criminal 
investigation.
    Mr. Jordan. And we understand ``alleged'' means alleged, 
and you can--you can--that does--you're innocent until proven 
guilty, in fact, you can invoke any privilege and right you 
have, like we just saw a few hours ago from Mr. Gutierrez where 
he invoked his Fifth Amendment privilege, we understand all 
that, but we're asking you, the guy at the head of the Bank, 
who just told us that there are four individuals under 
investigation for alleged bribes and corruption on three 
different issues dealing with three different loans the bank 
has made to different companies, different organizations, and 
you're only going to tell us when--we only know about Impex, 
we're asking about the other two. Can you tell the companies 
involved in the other two?
    Mr. Hochberg. First of all, you've made a couple of 
assertions that they deal with loans and other individuals. All 
I can say is there are four individuals; three are no longer 
working at the Bank, one is on administrative leave, and the 
Inspector General and the Department of Justice is 
investigating this for a possible criminal case.
    Mr. Jordan. And you said you had--you've had no interaction 
with the Department of Justice. So is it accurate to say the 
Department of Justice has not instructed you not to share 
information with Congress?
    Mr. Hochberg. This is--these are in the hands----
    Mr. Jordan. Yes or no? That's a yes or no. Did the 
Department of Justice instruct you not to share information 
with Congress?
    Mr. Hochberg. I have not dealt with the Department of 
Justice.
    Mr. Jordan. All right. And just again for the record, and I 
did this earlier, the Inspector General has not specifically 
told you, Mr. Hochberg, do not talk to--do not disclose the 
three other individuals, do not disclose the three other 
companies or whatever's involved in these three situations? Did 
he specifically tell you not to disclose that to us?
    Mr. Hochberg. The--our general counsel made that 
recommendation on concurrence from the Inspector General.
    Mr. Jordan. The inspector--that's--I'm not asking you that.
    Mr. Hochberg. The--the----
    Mr. Jordan. I'm asking did the Inspector General 
specifically tell you----
    Mr. Hochberg. I did not speak directly----
    Mr. Jordan. Because what we get from the Inspector General 
when we asked for certain documents, he said, go talk to Mr. 
Hochberg, see if you can get the documents from him. So that 
would imply that you can give them to us, which is what the law 
allows you to do if you so choose, but you are choosing not to 
answer our questions and give us that information.
    Mr. Hochberg. I am choosing not to interfere with a 
criminal investigation.
    Mr. Jordan. Okay. Does the gentleman have additional 
questions? The gentleman from South Carolina?
    We want to thank you, Mr. Hochberg and Ms. Katz, for being 
here today for an important hearing. And the committee's 
adjourned.
    [Whereupon, at 12:18 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
[GRAPHIC] [TIFF OMITTED] 
                                 <all>
</pre></body></html>
